<html>
<title> - SECURITY AND GOVERNANCE IN SOMALIA: CONSOLIDATING GAINS, CONFRONTING CHALLENGES, AND CHARTING THE PATH FORWARD</title>
<body><pre>[Senate Hearing 113-153]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-153

 SECURITY AND GOVERNANCE IN SOMALIA: CONSOLIDATING GAINS, CONFRONTING 
               CHALLENGES, AND CHARTING THE PATH FORWARD

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 8, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations









[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/


                         U.S. GOVERNMENT PRINTING OFFICE 

86-352 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON AFRICAN AFFAIRS        

            CHRISTOPHER A. COONS, Delaware, Chairman        

RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
BENJAMIN L. CARDIN, Maryland         JOHN McCAIN, Arizona
JEANNE SHAHEEN, New Hampshire        JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                RAND PAUL, Kentucky

                              (ii)        














                            C O N T E N T S

                              ----------                              
                                                                   Page

Aynte, Abdi, director, Heritage Institute for Policy Studies, 
  Mogadishu, Somalia.............................................    34
    Prepared statement...........................................    37
Coons, Hon. Christopher A., U.S. Senator from Delaware, opening 
  statement......................................................     1
Dory, Amanda, Deputy Assistant Secretary for African Affairs, 
  U.S. Department of Defense, Washington, DC.....................     8
    Prepared statement...........................................    10
Flake, Hon. Jeff, U.S. Senator from Arizona, opening statement...     3
Hogendoorn, Dr. E.J., deputy director for Africa, International 
  Crisis Group, Washington, DC...................................    40
    Prepared statement...........................................    43
Le Sage, Dr. Andre, senior research fellow for Africa, Institute 
  for National Strategy Studies, National Defense University, 
  Washington, DC.................................................    27
    Prepared statement...........................................    29
Lindborg, Hon. Nancy, Assistant Administrator, Bureau of 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development, Washington, DC..................    12
    Prepared statement...........................................    13
Thomas-Greenfield, Hon. Linda, Assistant Secretary of State for 
  African Affairs, U.S. Department of State, Washington, DC......     4
    Prepared statement...........................................     6

                                 (iii)



 
 SECURITY AND GOVERNANCE IN SOMALIA: CONSOLIDATING GAINS, CONFRONTING 
               CHALLENGES, AND CHARTING THE PATH FORWARD

                              ----------                              


                        TUESDAY, OCTOBER 8, 2013

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Christopher 
A. Coons (chairman of the subcommittee) presiding.
    Present: Senators Coons, Flake, and McCain.

        OPENING STATEMENT OF HON. CHRISTOPHER A. COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. I am pleased to call to order this hearing 
of the African Affairs Subcommittee on security and governance 
issues in Somalia.
    Let me at the outset say that in this Government shutdown, 
I think it remains critical first that we fulfill our 
constitutional duty in a bipartisan manner to examine ongoing 
and pressing national security issues. I also think that the 
shutdown, as we will examine in this hearing, is having a 
significant and potentially greater impact on our ability to 
execute effective diplomacy, to provide meaningful development 
assistance, to analyze intelligence in a timely and thoughtful 
way in the Horn of Africa and elsewhere. And so I think it is 
relevant to our current state to have this hearing today, and I 
am grateful for the cooperation of the full committee chair and 
ranking and my ranking, Senator Flake, in allowing us to move 
forward today particularly given the very strong panels of 
witnesses we have before us.
    As we work together to help Somalia chart a course that may 
lead to a more stable and secure future, I think it is 
additionally helpful for us to provide a strong example of a 
functioning democracy that we can be proud of here at home.
    I would like to welcome, as I mentioned, Ranking Member 
Flake and other members of the committee who may join us and 
our distinguished witnesses on our first panel: Assistant 
Secretary of State for African Affairs, Linda Thomas-
Greenfield; Deputy Assistant Secretary of Defense for Africa, 
Amanda Dory; and USAID Assistant Administrator for 
Bureaucracy--excuse me--Democracy----
    [Laughter.]
    Senator Coons [continuing]. Conflict and Humanitarian 
Assistance, Nancy Lindborg. Nancy Lindborg is not the Assistant 
Secretary for Bureaucracy but for Democracy. Forgive me.
    On our second panel, we will have Andre Le Sage, senior 
research fellow for Africa at the National Defense University's 
Institute for National Strategic Studies; Abdi Aynte, founder 
and executive director of the Heritage Institute for Policy 
Studies in Mogadishu. And thank you for the effort involved in 
your travel here to join us today. And E.J. Hogendoorn, deputy 
director for Africa at the International Crisis Group.
    Thank you to all of our witnesses. I know in several of 
your cases it was difficult to make preparations, given the 
shutdown. I am grateful for your cooperation and presence here 
today.
    Today's hearing comes almost exactly two decades after the 
battle of Mogadishu, in which 18 Americans were killed 
defending U.S. interests and providing vital humanitarian 
assistance to Somalia. Following the United States withdrawal 
that occurred after that and after 20 years of state collapse, 
lawlessness, and general difficulties in Somalia, recent 
developments have given us significant reasons to be hopeful. 
Broad progress in Somalia is due, in no small part, to the 
security gains made by the African Union mission in Somalia 
known as AMISOM, consisting of Kenyan, Uganda, Burundian, and 
other African national troops in coordination with the 
Ethiopian military. AMISOM has deprived al-Shabaab of territory 
and revenue creating much-needed space to begin building a 
functioning state and state structures. This stability has 
allowed Somalia to form a constituent assembly, an elected new 
government which was official recognized by the United States 
last year.
    As our witnesses will testify, while much progress has been 
made, significant challenges still remain. The Somali people 
are frustrated with the government's failure to provide basic 
services, education, and health care and others, and the 
humanitarian situation remains severe. This year, for example, 
there are more than 2 million Somalis without adequate food 
access, and recently more than 160 confirmed cases of polio 
have emerged, just a reminder of the very fragile health and 
humanitarian situation in Somalia.
    Recognizing these matters cannot be fully addressed without 
a functioning state, the Somali people are impatient with the 
central government's lack of leadership on forming federal 
states, as required by the constitution. The government now has 
36 months to complete a constitution, conduct a constitutional 
referendum, and hold national elections. Increased security has 
provided the foundation for stability and governance, but as 
the horrific attack in Kenya 2 weeks ago demonstrates, al-
Shabaab still is capable of operating both within and beyond 
Somalia's borders. The unconscionable targeting of innocent 
civilians by al-Shabaab requires our attention and resources, 
and as we consider what it means for Somalia, American 
interests in the region, and our allies in the region, it is 
worthy of extra attention today. This is why I will soon 
introduce, along with Senator Flake, a resolution condemning 
the Westgate attack and reaffirming U.S. support for Kenya and 
for regional efforts to counter terrorism.
    This hearing is an opportunity to consider how U.S. support 
can help Somalis build on gains in security and governance. 
Since 2006, our country has provided nearly $700 million of 
support to AMASOM and the Somali National Army, in addition to 
the nearly $140 million to support stabilization, democracy, 
and economic growth in the past 2 years.
    Despite these investments, I am concerned our strategy has 
not fully kept pace with changing realities on the ground, 
particularly concerns about governance, and I intend to 
introduce legislation requiring the administration to present 
its Somalia strategy to Congress with benchmarks for progress 
and a timeline for implementation, which I hope we can discuss 
in more detail today.
    I am particularly pleased to welcome Assistant Secretary 
Thomas-Greenfield for her first hearing before our committee 
before being confirmed to her post and again express gratitude 
to Mr. Aynte for traveling from Mogadishu to be with us today 
and to all of our witnesses for the skills, expertise, and 
background you will bring to this hearing.
    With that, I will turn it over to Senator Flake for his 
opening statement.
    Senator.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. I thank the chairman. I appreciate him 
holding this hearing and for you making the sacrifice to be 
here and some challenges with the shutdown and obviously 
geographical challenges as well. So thank you for being here.
    As events of the past weekend indicate, United States 
interests continue to be threatened in Somalia. Nearly 20 years 
to the day after the battle of Mogadishu, unfortunately known 
as ``Blackhawk Down,'' U.S. special forces once again risked 
their lives in defense of those interests. Yet, 20 years later, 
it seems that the same problems that plagued Somalia earlier 
since the collapse of the central government in 1991, and 
perhaps even before, continue to plague it today.
    Today's hearing will provide us with an excellent 
opportunity to evaluate current United States policy toward the 
Somali Government, which the U.S. Government recognized for the 
first time earlier this year. That is significant and we need 
to make sure that that leads to something positive. It is 
encouraging that the recognition occurred, but we need to make 
sure, like I said, that is moving in the right direction.
    The security situation and the threat posed by al-Shabaab 
also need to be assessed, especially in the wake of the Nairobi 
terror attack in the past couple of weeks.
    Lastly, the assistance that the United States provides to 
Somalia for development and security needs to be examined to 
ensure the tax dollars spent in Somalia go to support United 
States objectives there.
    This hearing today I feel is important as a first step to 
help ensuring that in another 20 years we will not be hearing 
reports of United States special forces risking their lives 
again in Somalia.
    I look forward to hearing from the witnesses today, and 
again thank you to the chairman for pushing forward on this. I 
think it is a good show that we are still having hearings and 
moving forward even with the shutdown. So thank you for being 
here.
    Senator Coons. Thank you, Senator Flake.
    And now we will move to our first panel of witnesses. 
Broadly speaking, we would encourage you to keep opening 
comments to 5 minutes, but please, we are here to hear from 
you. So first, if we might, Madam Assistant Secretary.

STATEMENT OF HON. LINDA THOMAS-GREENFIELD, ASSISTANT SECRETARY 
    OF STATE FOR AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ms. Thomas-Greenfield. Good afternoon, Chairman Coons, 
Ranking Member Flake. It really is my pleasure to appear before 
you today to talk about Somalia. You reminded me this is my 
first hearing since taking over my position about 2 months ago, 
and it really is important for me because, as Assistant 
Secretary for African Affairs, Somalia will remain a top 
foreign policy priority for the Department of State as it has 
for the Obama administration.
    This past year marked significant changes in Somalia and in 
our bilateral relationship with Somalia. The election of 
President Hassan Sheikh Mohamud was a welcome signal that room 
for political progress in Somalia was opening. This was made 
possible in part because of the international community's 
support for the Djibouti Peace Process and the leadership role 
of our regional partners, notably the African Union and the 
Intergovernmental Authority on Development, IGAD. On January 
17, we formally recognized the Federal Government of Somalia 
after two decades of transitional governments. Nonetheless, the 
U.S. Government also understood very clearly that Somalia would 
face considerable challenges as it worked to rebuild its 
statehood.
    The successes of the African Union mission in Somalia, 
AMISOM troop-contributing countries, and strategic partners to 
combat and eviscerate al-Shabaab are demonstrating the strength 
of an African-led model. Nonetheless, this Somalia-based al-
Qaeda affiliate remains a dangerous presence. The all-too-
recent terrorist attack on the Westgate Shopping Mall in 
Nairobi, for which al-Shabaab has taken credit, is a chilling 
example of the challenges for Somalia and the region. The 
attack suggests that violent extremism in the Horn of Africa 
may be evolving. It also makes clear that 
al-Shabaab presents a threat to U.S. partner nations in East 
Africa, to American citizens, and to U.S. interests in that 
region and elsewhere.
    Al-Shabaab must be stopped. The Federal Government of 
Somalia must increase its capacity to counter al-Shabaab, unify 
a fractured political system, and provide basic services to the 
Somali people. For all this, the Government of Somalia needs 
our support and much more. Our primary interest in Somalia is 
to help the people of Somalia build a peaceful nation that is 
stable with a stable government that is able to ensure civil 
security and services for its citizens.
    This leads me to turn to what our policy engagement is in 
Somalia.
    Prior to our recognition of the Federal Government of 
Somalia, our Somalia policy had three primary elements: provide 
support for the African Union mission in Somalia, or AMISOM as 
it is commonly known, and AMISOM's strategic partner Ethiopia, 
to combat al-Shabaab and provide political space for the 
government to operate. Second, we wanted to respond to the 
humanitarian crisis and initiate stabilization where possible. 
And third, we wanted to promote our dual track policy. This is 
prior transition.
    Post transition, the three elements of our Somali policy 
have evolved and it is as follows.
    First, we continue to support AMISOM as the primary 
stabilizing force in Somalia, as we expand our assistance to 
the Somali National Army to build its institutional and 
operational capacity. From fiscal year 2007 through fiscal year 
2013, the United States obligated approximately 512 million 
U.S. dollars in support of AMISOM, in addition to our assessed 
contributions for the U.N. logistics support package for 
AMISOM. During the same period, we obligated more than $170 
million to support the Somali National Army to counter al-
Shabaab more effectively.
    Second, we have shifted focus from humanitarian crisis 
response, now concentrating on security and stability, laying 
the foundation for economic recovery through our development-
focused programming. In fiscal year 2012 and fiscal year 2013, 
we provided nearly $140 million in funding to support Somalia's 
stabilization, democracy, and economic growth activities.
    Third, our dual track approach concluded with the 
successful completion of the Djibouti Peace Process and the 
recognition of the Federal Government of Somalia. The United 
States has underscored the importance of outreach and 
engagement with the regional administrations to form the 
federal framework. We will continue to fund humanitarian 
assistance and civil society programs in Somaliland and 
Puntland with an objective of improving regional collaboration 
toward federalism.
    Our assistance to Somalia includes an emphasis on human 
rights, on accountability, child soldier prevention, countering 
human trafficking, and budget transparency and fiscal 
management.
    The tragic and cowardly attack on innocent civilians at 
Kenya's Westgate Mall has underscored vulnerabilities in the 
Horn of Africa and demonstrates that al-Shabaab has a capable 
network in East Africa and it is willing to carry out attacks 
outside of Somalia. Concerted pressure from AMISOM and the 
Somali National Army has weakened al-Shabaab's ability to wage 
conventional military offensives and to hold territory inside 
Somalia. We attribute this to the success of the African-led 
model for achieving greater stability in Somalia. However, al-
Shabaab is able to conduct destabilizing operations in East 
Africa.
    The Department is working closely with our regional 
partners on counterterrorism efforts and we are reviewing 
internally what further resources we can provide to shore up 
AMISOM and further support their efforts, secure the border of 
Somalia and its neighbors, and contribute to the international 
effort to shape the Somali National Army into a cohesive, 
professional, and effective force.
    For the United States to effectively engage on these 
complex issues, understand local dynamics, build relationships, 
and manage our expanding programs in Somalia, we eventually 
need to establish a permanent U.S. diplomatic presence there. 
Ultimately, it is the security condition in Somalia that will 
dictate when we can establish a more permanent presence, and we 
recognize that the time is not right for that at this time. 
However, we are moving in that direction. Our current posture 
allows for our Nairobi-based diplomatic team to travel to the 
Somali capital and other key regions with increased frequency 
and duration, as security conditions permit.
    Building political cooperation among Somali regions and 
clans in support of the federal framework is essential if 
democracy, economic growth, and security are truly to take hold 
in Somalia. This is a message that President Hassan Sheikh 
emphasized during his Washington meetings with Secretary Kerry, 
with Secretary Hagel, with National Security Advisor Rice, and 
with me when I met with him in New York. We see budding signs 
that Hassan Sheikh is meaningfully engaging regional 
administrations: the Somalia Federal Government signed the 
Jubaland Accords on August 22, recognizing that regional entity 
and mapping a way forward to become a federal state; the 
federal government introduced a roadmap to the 2016 elections 
with a focus on political inclusion and security; and Mogadishu 
and Somaliland came to an agreement on regulating air space, a 
step toward wider reconciliation.
    Ultimately, the development of participatory, accountable, 
and representative governmental institutions that respond to 
the needs of the Somali people will secure that country's 
future. We are committed to working with the government and the 
people of Somalia to help them realize that vision.
    Thank you.
    [The prepared statement of Ms. Thomas-Greenfield follows:]

   Prepared Statement of Assistant Secretary Linda Thomas-Greenfield

                              introduction
    Good afternoon, Chairman Coons, Ranking Member Flake, and 
distinguished members of the mommittee. It is my pleasure to appear 
before you today to talk about Somalia, which, during my tenure as 
Assistant Secretary of State for African Affairs, will remain a top 
foreign policy priority for the Department of State, as it is for the 
Obama administration. The past year marked significant changes in 
Somalia and in our bilateral relationship with Somalia. The election of 
President Hassan Sheikh Mohamud was a welcome signal that room for 
political progress in Somalia was opening. This was made possible, in 
part, by the international community's support of the Djibouti Peace 
Process and the leadership role of our regional partners, notably the 
African Union and the Intergovernmental Authority on Development (IGAD. 
On January 17, we formally recognized the Federal Government of Somalia 
(FGS), after two decades of transitional governments. Nonetheless, the 
U.S. Government also understood very clearly that Somalia would face 
considerable challenges as it worked to rebuild its statehood.
    The successes of the African Union Mission in Somalia (AMISOM), 
AMISOM troop-contributing countries, and strategic partners to combat 
and eviscerate 
al-Shabaab are demonstrating the strength of an Africa-led model. 
Nonetheless, this Somalia-based al-Qaeda affiliate remains a dangerous 
presence. The all-too-recent terrorist attack on the Westgate Shopping 
Mall in Nairobi, for which al-Shabaab has taken credit, is a chilling 
example of the challenges for Somalia and the region. This attack 
suggests that violent extremism in the Horn of Africa may be evolving. 
It also makes clear that al-Shabaab presents a threat to U.S. partner 
nations in East Africa, to American citizens, and to U.S. interests. 
Al-Shabaab must be stopped. The Federal Government of Somalia must 
increase its capacity to counter al-Shabaab, unify a fractured 
political system, and provide basic services to the Somali people. For 
all this, the Government of Somalia needs our support--and much more of 
it. Our primary interest in Somalia is to help the people of Somalia 
build a peaceful nation with a stable government, able to ensure civil 
security and services for its citizens. This in turn will prevent 
terrorists from using Somali territory as a safe haven.
                 u.s. policy and engagement in somalia
    Prior to our recognition of the Federal Government of Somalia, our 
Somalia policy had three primary elements:

          (1) Provide support for the African Union Mission in Somalia, 
        or AMISOM as it is commonly known, and AMISOM's strategic 
        partner Ethiopia, to combat 
        al-Shabaab and provide political space for the government to 
        operate;
          (2) Respond to humanitarian crises and initiate stabilization 
        where possible; and
          (3) Promote our ``dual-track'' policy.

    Post transition, these three elements of our Somali policy have 
evolved as follows:

  <bullet> First, we continue to support AMISOM as the primary 
        stabilizing force in 
        Somalia, as we expand our assistance to the Somali National 
        Army to build its institutional and operational capacity. From 
        FY 2007 through FY 2013, the United States obligated 
        approximately $512 million in support of AMISOM, in addition to 
        our assessed contributions for the U.N. logistics support 
        package for AMISOM. During that same period, we obligated more 
        than $170 million to support the Somali National Army to 
        counter al-Shabaab more effectively.
  <bullet> Second, we have shifted focus from humanitarian crisis 
        response, now concentrating on security and stability, laying 
        the foundation for economic recovery through our development-
        focused programming. In FY 2012 and FY 2013, we provided nearly 
        $140 million in funding to support Somalia's stabilization, 
        democracy, and economic growth activities.
  <bullet> Third, our dual-track approach concluded with the successful 
        completion of the Djibouti Peace Process and the recognition of 
        the Federal Government of Somalia. The United States has 
        underscored the importance of outreach and engagement with the 
        regional administrations to form the federal framework. We will 
        continue to fund humanitarian assistance and civil society 
        programs in Somaliland and Puntland, with an objective of 
        improving regional collaboration toward federalism.

    Our assistance to Somalia includes an emphasis on human rights and 
accountability, child soldier prevention, countering human trafficking, 
and budget transparency and fiscal management.
                            westgate attack
    The tragic and cowardly attack on innocents at Kenya's Westgate 
Mall has underscored vulnerabilities in the Horn of Africa and 
demonstrates that al-Shabaab has a capable network in East Africa and 
is willing to carry out attacks outside Somalia. Concerted pressure 
from AMISOM and the Somali National Army has weakened 
al-Shabaab's ability to wage conventional military offensives and to 
hold territory inside Somalia. We attribute this to the success of the 
African-led model for achieving greater stability in Somalia. However, 
al-Shabaab can still conduct destabilizing operations in the East 
Africa region. The Department is working closely with our regional 
partners on counterterrorism efforts, and we are reviewing internally 
what further resources we can shore up to further support AMISOM, 
secure the borders of Somalia and its neighbors, and contribute to the 
international effort to shape the Somali National Army into a cohesive, 
professional, and effective force.
                             u.s. presence
    For the United States to effectively engage on these complex 
issues, understand local dynamics, build relationships, and manage our 
expanding programs in Somalia, we eventually need to establish a 
permanent U.S. diplomatic presence in Somalia. Ultimately, it is the 
security conditions in Somalia that will dictate when we can establish 
a more permanent presence and we recognize that the time is not right 
to do this. However, we are moving in that direction. Our current 
posture allows for our Nairobi-based diplomatic team to travel into the 
Somali capital and other key regions with increased frequency and 
duration, as security conditions permit.
                    federalism/political cooperation
    Building political cooperation among Somali regions and clans in 
support of the federal framework is essential, if democracy, economic 
growth, and security are truly to take hold in Somalia. This is a 
message that President Hassan Sheikh emphasized during his Washington 
meetings with Secretary Kerry, Secretary Hagel, and National Security 
Advisor Rice. We see budding signs that Hassan Sheikh is meaningfully 
engaging regional administrations: The Somali Federal Government signed 
the Jubbaland Accords on August 22, recognizing the regional entity and 
mapping a way forward to become a federal state; the Federal Government 
introduced a roadmap to the 2016 elections with a focus on political 
inclusion and security; and Mogadishu and Somaliland came to an 
agreement on regulating air-space, a step towards wider reconciliation.
                               conclusion
    Ultimately, the development of participatory, accountable, and 
representative governmental institutions that respond to the needs of 
the Somali people will secure the country's future. We are committed to 
work with the Government and people of Somalia to help them realize 
this vision.

    Senator Coons. Thank you very much, Madam Assistant 
Secretary, and I look forward to a round of questions on the 
topic.
    If I might, next Deputy Assistant Secretary Dory. We look 
forward to your testimony.

   STATEMENT OF AMANDA DORY, DEPUTY ASSISTANT SECRETARY FOR 
  AFRICAN AFFAIRS, U.S. DEPARTMENT OF DEFENSE, WASHINGTON, DC

    Ms. Dory. Chairman Coons, Ranking Member Flake, 
distinguished members of the subcommittee, and staff, thank you 
for the opportunity to appear today to update you on the 
Department of Defense's role vis-a-vis Somalia and the way 
ahead there.
    The United States, as you know, has not maintained an 
official military relationship with Somalia since the early 
1990s, in large part because there was not a United States-
recognized Government of Somalia until 2013.
    In light of the recognition in January 2013, the Department 
of Defense, in close cooperation and coordination with the 
State Department, seeks to develop a normalized military-to-
military relationship with the Somali National Security Forces, 
SNSF.
    Somalia is emerging from 20 years of civil war, as all have 
acknowledged. Since 2006, al-Shabaab has led a violent 
insurgency in southern and central Somalia, first against the 
former transitional federal government and now against the 
Federal Government of Somalia and African Union Mission in 
Somalia--AMISOM--forces. Once controlling most major Somali 
cities, 
al-Shabaab operated with impunity.
    Today, Somali, AMISOM, and Ethiopian forces have weakened 
al-Shabaab as a conventional fighting force in Somalia. 
However, al-Shabaab is still dangerous and capable of 
conducting sophisticated, unconventional attacks to disrupt 
AMISOM operations and the Somali Government. Recent events in 
Mogadishu and Nairobi are sobering reminders. Thus, for the 
foreseeable future, we must maintain focus on Somalia to 
sustain security progress made to date, as al-Shabaab is likely 
to remain the primary threat to Somalia and East African 
stability for some time to come.
    The significant gains achieved by Somali and AMISOM forces 
over the past few years have been critical in providing space 
for the political process that resulted in Somalia's transition 
to government now officially recognized. Somalia faces many 
challenges ahead, but it is moving forward on a positive path 
that was hard to imagine 5 years ago. As military-to-military 
relations mature and are normalized with Somalia, DOD, through 
U.S. Africa Command, will work with the State Department to 
design security cooperation activities to assist with the 
development of a unified Somali security force.
    There have also been tremendous gains at sea. In and around 
the Horn of Africa, piracy has virtually been eliminated. As a 
maritime nation, the United States relies on the unhindered use 
and access of the seas to ensure our economic well-being. As 
recently as 2011, Somali pirates held nearly 600 mariner 
hostages aboard 28 captured ships and roamed an area the size 
of the United States. Today, thanks to changes in business 
practices by the commercial maritime industry and the presence 
of international naval forces, piracy is almost nonexistent off 
the coast of Somalia.
    DOD's approach to the region and to Somalia reflects the 
U.S. national security strategy, the strategy vis-a-vis sub-
Saharan Africa, and the Defense Strategic Guidance. DOD focuses 
in particular on advancing peace and security by working with 
partners to address security threats of shared concern and to 
create an environment that enables improved governance and 
sustainable broad-based development.
    Looking forward, DOD will work, in conjunction with the 
State Department and other U.S. Government agencies, to provide 
security assistance to build the capacity of Somalia's security 
institutions, including their ability to counter terrorism, 
secure borders and coastline, and reinforcing democratic values 
and the rule of law. Additionally, we will continue to work 
with the State Department to support AMISOM and its troop-
contributing countries in their efforts to counter and defeat 
al-Shabaab.
    AMISOM represents an important success story in which 
African forces from Uganda, Burundi, Kenya, Djibouti, and 
Sierra Leone have collaborated to progressively regain 
territory from al-Shabaab, working in collaboration with the 
Somali National Army, as well as Ethiopian forces. The United 
States and other international partners have provided critical 
training and equipment assistance to facilitate these efforts.
    Once appropriations are approved for the Department of 
Defense, fiscal year 2014 would be the first in 20 years in 
which DOD is able to support Somali National Security Forces 
directly with title 10 activities.
    DOD has put in place a senior military representative at 
the Somali Affairs Unit in Nairobi, who performs a role similar 
to that of a defense attache, and we will increase our presence 
in Mogadishu in tandem with the State Department.
    DOD personnel are now participating in both the Joint 
Security Committee led by the Somali Government and the Somalia 
Defense Working Group led by the United Nations on a regular 
basis. Moreover, we have made a concerted effort to increase 
our key leader engagements with senior Somali officials. This 
summer, the commander of USAFRICOM, General Rodriguez, made his 
initial visit to Mogadishu. Additionally, Secretary Hagel 
hosted the President of Somalia and his Chief of Defense at the 
Pentagon at the end of September. These face-to-face 
engagements have been critical in identifying and better 
understanding Somalia's security needs and concerns.
    In conclusion, Somalia will continue to present a complex 
and fluid set of challenges and opportunities. However, with 
sustained assistance from the United States and other 
international partners, Somalia's national security apparatus 
will be better positioned to fend off the al-Shabaab insurgency 
and gradually transform the fragile state into a success story.
    Thank you for your enduring support to our men and women in 
uniform and our dedicated team of civilian professionals. We 
look forward to working with you on Somalia and the other 
elements of our Africa policy.
    Thank you.
    [The prepared statement of Ms. Dory follows:]

    Prepared Statement of Deputy Assistant Secretary Amanda J. Dory,

     Mr. Chairman, Ranking Member, and distinguished members of the 
Senate Foreign Relations Committee, thank you for this opportunity to 
update the subcommittee on the Department of Defense's (DOD) vision and 
role in Somalia.
                              introduction
    The United States has not held an official military relationship 
with Somalia since the early 1990s, in large part because there was not 
a U.S.-recognized Government of Somalia until 2013.
    In light of the January 2013 recognition of the Federal Government 
of Somalia, the Department of Defense, in cooperation and close 
coordination with the Department of State (DOS), seeks to develop a 
normalized military-to-military relationship with the Somali National 
Security Forces (SNSF). Both agencies intend to work together in 
assisting Somalia to build the operational capacity of the SNSF and 
support the development of Somali security institutions.
                          security environment
    Somalia is emerging from 20 years of civil war and the oppressive 
control of 
al-Shabaab. Since 2006, al-Shabaab has led a violent insurgency in 
southern and central Somalia, first against the former Somali 
Transitional Federal Government, and now against the Federal Government 
of Somalia and African Union Mission in Somalia (AMISOM) forces. Once 
controlling most major Somali cities, al-Shabaab operated with 
impunity.
    Today, Somali, AMISOM, and Ethiopian forces have weakened al-
Shabaab as a conventional fighting force in Somalia. However, al-
Shabaab is still dangerous and capable of conducting sophisticated 
unconventional attacks to disrupt AMISOM operations and the Somali 
Government. Recent events in Mogadishu and Nairobi are sobering 
reminders. Thus, for the foreseeable future, we must maintain focus on 
Somalia to sustain security progress made to date, as al-Shabaab is 
likely to remain the primary threat to Somalia and East Africa 
stability for some time to come.
    The significant gains achieved by Somali and AMISOM forces over the 
past few years have been critical in providing space for the political 
process that resulted in Somalia's transition to a government now 
officially recognized by the United States. Somalia faces many 
challenges ahead, but it is moving forward on a positive path that was 
hard to imagine 5 years ago. As military-to-military relations mature 
and are normalized with Somalia, DOD through U.S. Africa Command 
(USAFRICOM) will work with the DOS to design security cooperation 
activities to assist with the development of a unified Somali security 
force.
    There have also been tremendous gains at sea. In and around the 
Horn of Africa, piracy has virtually been eliminated. As a maritime 
nation, the United States relies on the unhindered use of the seas to 
ensure our economic well-being, and we seek to ensure the same freedoms 
for other nations. As recently as 2011, Somali pirates held nearly 600 
mariners hostages aboard 28 captured ships, and roamed an area the size 
of the United States looking for their next opportunity. Today, thanks 
to changes in business practices by the commercial maritime industry, 
and the presence of international naval forces, piracy is almost 
nonexistent off the coast of Somalia. The last successful hijacking of 
a major commercial ship was in May 2012.
                  dod security assistance /cooperation
    DOD's approach to the region and to Somalia reflects the U.S. 
National Security Strategy, the U.S. Strategy toward sub-Saharan 
Africa, Presidential Policy Directive 23 on Security Sector Assistance 
(SSA), and the Defense Strategic Guidance. DOD focuses in particular on 
advancing peace and security by working with partners to address 
security threats of shared concern and to create an environment that 
enables improved governance and sustainable broad-based development.
    Looking forward, DOD will work, in conjunction with the DOS and 
other U.S. agencies providing security sector assistance to build the 
capacity of Somali security institutions in pursuit of the following 
objectives: (1) improve Somalia's ability to counter terrorism and 
secure its borders and coastline, and (2) reinforce democratic values 
and respect for rule of law. Additionally, we will continue to work 
with the State Department to support AMISOM and its troop-contributing 
countries in their efforts to counter and defeat al-Shabaab, creating 
space for the extension of governance throughout Somalia's territory. 
AMISOM represents an important success story in which African forces--
from Uganda, Burundi, Kenya, Djibouti, and Sierra Leone--have 
collaborated to progressively regain territory from al-Shabaab, working 
in collaboration with the Somali National Army as well as Ethiopian 
forces. The United States and other international partners have 
provided critical training and equipment assistance to facilitate the 
efforts of these forces.
    Once appropriations are approved for the Department, fiscal year 
2014 (FY 2014) would be the first in 20 years in which DOD is able to 
support the SNSF directly with title 10 funding. Accordingly, USAFRICOM 
is working closely with Combined Joint Task Force-Horn of Africa (CJTF-
HOA) and DOS to ensure all proposed security cooperation programs are 
complementary to other ongoing U.S. Government and international 
efforts and are consistent with all laws affecting U.S. assistance, 
including the Child Soldiers Prevention Act. Initial training proposals 
for FY 2014 will likely focus on logistics, personnel management, 
finance and budgeting, and maintenance, all of which were requested by 
the Somali leadership.
    DOD has put in place a Senior Military Representative at the Somali 
Affairs Unit in Nairobi, who performs a role similar to a Defense 
Attache, and we will increase our presence in Mogadishu in tandem with 
the State Department. CJTF-HOA personnel are now participating in both 
the Joint Security Committee led by the Somali Government and the 
Somalia Defense Working Group led by the United Nations 
on a regular basis. Moreover, we have made a concerted effort to 
increase our key leader engagements with senior Somali officials. This 
summer, the Commander of USAFRICOM made an initial visit to Mogadishu. 
Additionally, Secretary Hagel recently hosted the President of Somalia, 
Hassan Sheikh Mohamud and his Chief of Defense, General Elmi, at the 
Pentagon. These face-to-face engagements have been critical in 
identifying and better understanding Somali security needs and 
concerns.
    With regard to maritime security, DOD has played and is playing a 
significant role in countering piracy and maritime crime.In 2009, we 
established Combined Task Force 151 (CTF-151) in a dedicated effort to 
prevent further attacks in the Gulf of Aden and off the eastern coast 
of Somalia. The United States has both commanded this Task Force and 
provided naval forces to it. In addition to CTF-151, the U.S. Navy also 
participates in NATO's counterpiracy efforts in the Horn of Africa, as 
part of Operation Ocean Shield. Today, pirates no longer roam freely. 
However, notwithstanding the positive trends of the past 2 years, the 
decline in piracy is perishable if these measures are not maintained.
    Finally, DOD and DOS will explore opportunities to increase the 
SNSF border security capabilities; assist Somalia's maritime security 
capacity; build a Somali counterterrorism capability to deal with 
terrorists threats; and assisting in justice sector reforms.
                               conclusion
    Somalia will continue to present a complex and fluid set of 
challenges and opportunities. However, with sustained assistance from 
the United States and other international partners, Somalia's national 
security apparatus will be better positioned to fend off the al-Shabaab 
insurgency and gradually transform the fragile state into a success 
story.
    Thank you for your enduring support to our men and women in 
uniform, and our dedicated team of civilian professionals. We look 
forward to working with you in the months ahead.

    Senator Coons. Thank you very much.
    Last on our first panel, Assistant Administrator Lindborg, 
please.

  STATEMENT OF HON. NANCY LINDBORG, ASSISTANT ADMINISTRATOR, 
  BUREAU OF DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
   U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ms. Lindborg. Good afternoon. Thank you, Chairman Coons and 
Ranking Member Flake. I really appreciate the opportunity to 
speak with you today and most importantly appreciate your 
ongoing support for our assistance programs that make a 
difference in the lives of millions around the world.
    I last testified in front of this committee about Somalia 
in August 2011, and that was as the worst drought in East 
Africa in 60 years had plunged more than 13 million people in 
the region into crisis and just after the July 20th U.N. 
declaration of famine in Somalia. At the height of that crisis, 
4 million Somalis' survival depended on receiving emergency 
assistance, and although the entire region suffered, only in 
Somalia did the drought result in famine. As noted, it was the 
deadly combination of drought, 20 years of conflict, a failed 
state, and the presence of armed terrorists that led to the 
death of hundreds of thousands of Somalis. And as Amartya Sen 
has famously said, famines do not happen in democracies.
    So 2 years later, it is a remarkable story that we are 
telling right now, that Somalia has its first legitimate 
central government since 1991. It has a democratically elected 
President and Parliament. And I am very pleased to report that 
just recently I was in Brussels where 58 countries gathered in 
support of a compact for Somalia that focuses not on famine, 
but on peace and prosperity. The recent, very tragic al-Shabaab 
attack in Nairobi underscores the need to reaffirm our 
commitment to helping Somalia on its pathway to peace and 
prosperity and economic growth and providing alternatives to 
violent extremism.
    Since 1991, USAID's work in Somalia has been defined by a 
prolonged, complex humanitarian emergency. However, over the 
past 5 years with increasing security gains, USAID has been 
able to increase our support in five key areas for transition, 
and most importantly in 2012, USAID's democracy and governance 
efforts supported the formation of Somalia's first national 
government in 22 years. With other donors, we provided 
logistics support, constitutional experts to help convene 
traditional elders and representatives from a cross section of 
Somali society into a constituent assembly. USAID partners 
mounted a massive civic education campaign to mobilize support 
for the constitution drafting process and its eventual adoption 
by the constituent assembly. This assembly elected new members 
of Parliament who then selected the new President, Hassan 
Sheikh Mohamud, through a democratic process.
    Globally we see that the greatest poverty and insecurity 
persists in weak and fragile states that are plagued by 
stubborn conflict. 
In 2011, a group of 19 self-identified conflict-affected and 
fragile states established a new framework for helping 
countries climb out of protracted conflict called the ``New 
Deal for Engagement in Fragile States.'' This new deal calls 
for a clear focus on five key peace-building and state-building 
goals, including legitimate politics, security, justice, 
economic foundations, and revenues and services. The compact 
that we all just endorsed in Brussels with the Government of 
Somalia sets us on a roadmap to achieve those goals with very 
clear benchmarks: a federal constitution by 2015; credible 
elections by 2016; 30 percent quota for women's participation; 
state security institutions; and so forth. The new deal hinges 
firmly on mutual accountability and a state-society 
relationship that is based on inclusion and on dialogue. This 
very specifically means involving previously marginalized 
populations, broad civil society consultations, and vital 
dialogue with regional entities like Somaliland and Puntland. 
This approach recognizes that security, development, and 
governance are deeply intertwined and must be pursued together.
    Today food insecurity levels in Somalia are at the lowest 
point since before the 2011 drought. Yet, three key challenges 
remain. These food security gains are very fragile. We have 
ongoing humanitarian needs with 870,000 people still in crisis; 
insecurity, as al-Shabaab and other armed groups continue to 
limit access; and thirdly, access, which is vital to carrying 
out both continuing humanitarian efforts and expanding our 
development actions.
    Finally, Somalia is challenged not only by conflict and 
weak governance but also with the severe weather shocks that 
are coming in ever-faster cycles. So it is impossible for 
communities to escape these cycles of crisis. As we have done 
in other parts of the Horn and in the Sahel, USAID is focused 
not just on saving lives but building resilience so communities 
are better prepared for, and able to recover from, the next 
shock like the drought of 2011.
    Ultimately, the Somali people must be the primary 
architects of peace, democracy, and development in their 
country, and Somalia would not have the opportunity that it has 
today were it not for the many members of the Somali community 
in and outside of the country who are making a daily decision 
to focus on a future built on hope and peace rather than on 
conflict and despair. We know the road is long. The challenges 
are steep this will not be fast nor will it be easy, but with 
the specific commitments of the new deal, that roadmap, with 
the specific commitments and continued focus by the people and 
the Government of Somalia, we believe that right now represents 
the best chance for peace in two decades and the United States 
will remain a committed partner.
    Thank you again and I look forward to questions.
    [The prepared statement of Ms. Lindborg follows:]

      Prepared Statement of Assistant Administrator Nancy Lindborg

    Good afternoon and thank you, Chairman Coons, Ranking Member Flake, 
and members of the Senate Foreign Relations Committee's Subcommittee on 
African Affairs for the opportunity to speak with you today about the 
complex state of governance, development, and security in Somalia. 
Thank you also for your continued support for our assistance programs 
that make a difference in the lives of millions every day.
                              introduction
    In 2011, the worst drought in East Africa in 60 years plunged more 
than 13.3 million people into crisis. USAID and the international 
community's response to the devastating Horn of Africa crisis helped 
meet the needs of 4.6 million people across the region. Despite these 
efforts, in July 2011, the United Nations declared famine in two areas 
of southern Somalia. Additional areas slipped into famine in the weeks 
to follow and at the height of the crisis, 4 million Somali lives 
depended on receiving emergency assistance.
    While the drought affected millions across the region, only in 
Somalia did drought result in famine. This is not a designation we use 
lightly, as it means that at least 20 percent of households face an 
extreme lack of food with evidence of starvation, death, and 
destitution; more than 30 percent are acutely malnourished; and the 
mortality rate exceeds two deaths per 10,000 people a day. In Somalia, 
it was the deadly combination of drought, 20 years of conflict, a 
failed state, and the presence of armed terrorists that led to the 
deaths of hundreds of thousands Somalis. As Amartya Sen famously said, 
famines don't happen in democracies.
    Now, 2 years later, Somalia has its first effective central 
government since 1991, with democratically elected President Hassan 
Sheikh Mohamud and a new Somali Federal Parliament. Somalis have worked 
hard to establish the foundation of their state based on significant 
efforts to forge a national consensus. And I am very pleased to report 
that I recently returned from an international meeting on Somalia 
focused on peace and prosperity, not famine. In Brussels on September 
16, 58 countries and 11 international organizations gathered in support 
of a compact that outlines a roadmap forward. Emerging from 20 years of 
conflict will be a long and bumpy road, but Somalia is now heading in 
the right direction, with the best chance in 20 years to move toward a 
better future.
    Today I am pleased to talk to you about this opportunity, the new 
frameworks and international partnerships in support of Somalia, and 
what USAID is doing to help Somalia transition out of conflict, 
fragility, and chronic poverty.
    The recent, tragic al-Shabaab attack in Nairobi only underscores 
the need for the international community to reaffirm our commitment to 
assist the development of a more legitimate, inclusive democracy in 
Somalia. This will be central to peace, prosperity, economic growth, 
and to providing positive alternatives to violent extremism in those 
communities most at risk of recruitment and radicalization to violence.
                 emerging from two decades of conflict
    USAID's work in Somalia for the last two decades has been defined 
by a prolonged complex humanitarian emergency and significant security 
constraints. Since 1991, widespread and persistent food insecurity, 
civil strife, interclan conflict, political instability, endemic 
poverty, and recurrent cycles of flooding and drought have resulted in 
severe humanitarian needs. For decades weak governance and insecurity 
have inhibited meaningful solutions and prevented humanitarian aid from 
reaching many who need it most.
    However, over the last 5 years, enabled by security advancements 
made by the U.N. Security Council authorized African Union Mission in 
Somalia (AMISOM), USAID has increased support focused on three areas 
critical for transition: stronger ties between government and 
community; economic opportunity through improved government-private 
sector relations; and improved government ability to provide basic 
services.
    Most importantly, in 2012, USAID's democracy and governance efforts 
supported the formation of Somalia's first national government in 22 
years. USAID and other international development partners provided 
logistics support and constitutional experts to help convene 
traditional elders and representatives from a cross-section of Somali 
society in a Constituent Assembly. This Assembly elected new Members of 
Parliament, who then selected President Hassan Sheikh Mohamud through a 
democratic process. USAID partners mounted a massive civic education 
campaign to mobilize support for the constitution-drafting process and 
its eventual adoption by the Constituent Assembly.
   the new deal for engagement in fragile states: a way forward for 
                                somalia
    Globally, we are seeing that the greatest poverty and insecurity 
persists in those states plagued by weak and fragile governments and 
stubborn conflict. These environments require a distinct approach. In 
2011, a group of 19 self-identified ``conflict affected and fragile 
states,'' working with development partners and international 
organizations, identified a new framework for helping countries climb 
out of protracted conflict called the New Deal for Engagement in 
Fragile States. The New Deal calls for a clear focus on five key peace-
building and state-building goals: legitimate politics, security, 
justice, economic foundations, and revenues and services. Based on 
research by the World Bank, this approach recognizes that security, 
development, and governance are deeply intertwined.
    The New Deal calls on Somali Government officials, international 
donors, and civil society to work together to create a common plan. It 
hinges firmly on the notion of mutual accountability and a commitment 
by both fragile states and their international partners to build mutual 
trust by providing aid and managing resources more effectively and 
aligning these resources for results.
    Since 2013, with the consolidation of the Somali Central Government 
and a new committed government partner, USAID has been working closely 
with international development partners to apply the New Deal in 
Somalia. Just last month in Brussels, together with our colleagues at 
the State Department, international development partners, and Somali 
President Hassan Sheikh Mohamud, we endorsed the terms of a compact 
focused on moving all stakeholders toward shared state-building and 
peace-building goals. This plan includes benchmarks for success and 
roles and responsibilities with clear leadership by the Government of 
Somalia.
    Fostering a strong state-society relationship, inclusion, and 
dialogue are all key elements of this effort; in Somalia this means 
involving previously marginalized populations and vital dialogue 
between the Government in Mogadishu and regional entities like 
Somaliland and Puntland. Planning endeavors must be given the necessary 
time, enabling outreach to regional stakeholders and civil society. 
This is key to participatory democracy. We understand that such 
consultations are time-sensitive, but it will be time well-spent. By 
their nature, consultations often generate a wide range of opinions 
regarding the best way forward, which helps leaders chart effective 
solutions with buy-in from the people.
    The Compact sets forth the intent of the Government of Somalia and 
the international community to work together to achieve vital 
priorities including: finalizing and adopting a federal constitution by 
December 2015, holding credible elections by 2016, fulfilling a 30-
percent quota for women's participation in representative bodies, 
strengthening the capacity of state security institutions to provide 
basic safety and security, and implementing a national program for the 
treatment and handling of disengaged combatants. Importantly, it 
commits donor participants to provide aid in a conflict-sensitive 
manner, which is crucial given Somalia's complex conflict history and 
dynamics.
    USAID's ongoing democracy and governance work is already helping to 
make progress toward these goals by supporting Parliament's capacity-
building and engagement with civil society as well as the use of 
financial software systems to improve revenue collection and promote 
accountability.
    The last 20 years in Somalia have demonstrated just how fragile the 
state-building process can be. In Somalia, we all know that the road is 
long and challenges remain steep, but with its specific commitments, 
and committed partners, we believe the New Deal represents the best 
chance for peace and development in two decades.
                         continuing challenges
    Today, food insecurity levels in Somalia are at the lowest point 
since before the 2010-11 drought. However, insecurity, lack of access, 
and ongoing humanitarian needs remain key challenges. These recent food 
security gains are very fragile with 870,000 people still in crisis and 
another 2.3 million people on the brink of falling back into crisis. 
Malnutrition levels remain elevated, with roughly 206,000 children 
under the age of 5 acutely malnourished; more than 1.1 million people 
are internally displaced, primarily in southern and central Somalia, in 
addition to the 1 million Somali refugees in the region.
    Recent violence--including intercommunal violence in Kismayo town, 
surrounding areas of Lower Juba Region, and in and around Mogadishu--
underscore the ongoing insecurity challenges throughout the country.
    Moreover, without consistent government control over rural areas, 
armed groups will likely continue to limit access for humanitarian and 
development workers. Al-Shabaab and other violent extremist groups 
continue to interfere with relief operations in rural areas across 
southern Somalia, including in Middle Juba Region and parts of Bakool, 
Bay, and Gedo regions. The withdrawal of the Ethiopian National Defense 
Force from Bay Region's capital city of Baidoa may further restrict 
humanitarian access and result in additional population displacement. 
Similarly, increasing security efforts by the Kenya Defense Forces may 
have access implications in Kismayo and reignite tensions in the 
community. Access will be vital to carrying out both continuing 
humanitarian efforts and expanding development activities.
                          building resilience
    With climate change, we know severe weather shocks are coming even 
faster, making it even more impossible for the poorest communities to 
escape a vicious cycle of crisis. We are bringing our development and 
humanitarian teams together for joint analysis and planning toward the 
shared goal of strengthening resilience to make communities, 
institutions, and society as a whole better prepared for and able to 
recover from shocks such as the drought and famine of 2011 and 2012.
    For example, humanitarian activities supporting pastoralist 
livelihoods are linking up with long-term economic growth efforts 
focused on animal health and livestock production. USAID's Resilience 
Agenda--an effort to do business differently and more closely 
coordinate with international partners to help vulnerable communities 
escape cycles of crisis--and the New Deal framework share the goals of 
improving livelihoods, generating employment, fostering inclusive 
growth and conflict management. Importantly, good governance is at the 
center of both comprehensive approaches.
                               conclusion
    For Somalia to break free of recurrent violence, stabilization 
activities must be supported by political actors, civil society 
members, and a Somali population committed to a comprehensive peace-
building process that ensures widespread participation but also 
emphasizes reconciliation over narrow interests. Ultimately, the 
primary architects of what peace, democracy, and development efforts 
look like must be the Somali people. Somalia would not have the kind of 
opportunity it has today were it not for the many members of the Somali 
community who make a daily decision to focus on a future built on hope 
and peace rather than on conflict and despair. And the United States 
remains a committed partner.

    Senator Coons. Thank you very much.
    I think we will do 7-minute rounds, if we might.
    Thank you very much to all the members of the first panel 
for your testimony and frankly for starting by focusing on the 
enormous progress that has been made in the last 2 years since 
you first testified, Assistant Administrator Lindborg, a 
reminder that there has been real progress in dealing with the 
famine and the humanitarian crisis, in dealing with piracy 
which has been dramatically curtailed, and in making steady 
progress toward a legitimate state recognized by the United 
States and laying the platform for progress toward a federal-
state structure and toward moving forward with dealing with 
some of the unresolved constitutional issues. Significant 
progress.
    I would like to ask first of all three of you, if I might, 
what impact is the current federal government shutdown having 
on your ability, your departments' abilities or stations' 
abilities to review and approve programs, to carry out and 
deliver needed development, diplomacy, intelligence, or other 
defense-related services, and were this shutdown to continue 
for another few weeks, would those impacts strengthen or become 
more pronounced in any way? Please, if you might.
    Ms. Thomas-Greenfield. If I may start. Thank you very much 
for that question. And I think I can say and I am sure my 
colleagues will agree that the shutdown has had an enormous 
impact on our ability to coordinate foreign policy within the 
interagency framework as some of our colleagues within the 
interagency are on furlough and they are not available for us 
to coordinate with or speak with. And it is really important, 
if we are to have an interagency process, that everyone is at 
the table.
    We are also not in a position to travel. In the case of 
travel to Somalia, that is a two-sided problem because of 
security now--our people are not traveling, but had there not 
been a security issue, they still could not travel because we 
have a travel moratorium.
    And then, thirdly, our Ambassadors are not able to host 
events that build on the critical relationships that we need to 
develop to do our jobs.
    I think an important part is we are not able to monitor our 
assistance. Senator Flake mentioned the large amount of 
taxpayer dollars that are supporting Somalia. We feel 
responsible for those taxpayer dollars, and in order to ensure 
that those dollars are going to where they need to go, we need 
to be able to get out in the field and monitor, and the 
shutdown will certainly impact that as well.
    Senator Coons. Ms. Dory.
    Ms. Dory. Similarly to the areas laid out by my colleague, 
I would just add from DOD's perspective, civilian employees in 
particular for the first week of the shutdown were affected and 
that significantly diminished our ability to operate across the 
Department in all key areas, whether it was acquisition, 
personnel readiness and training, policy development, et 
cetera, et cetera.
    There are also kind of unexpected ways where the shutdown 
impacts, for example, the inability to make cash expenditures. 
That could be fine as far as if you are thinking about cash 
expenditures to entertain a visiting delegation, for example, 
that perhaps that could be set to the side temporarily. But 
when it comes to aircraft who are paying fees of various kinds, 
whether it is refueling in overseas locations and you are 
unable to expend cash, that is just a very small example of the 
limitation imposed by the shutdown.
    And then perhaps most fundamentally is just the absence of 
understanding for fiscal year 2014 what our planning levels are 
to work with and that impedes on the longer term business in 
the Somalia context, for example, what title 10 DOD resources 
and title 22 State Department resources will be available to be 
brought to bear, whether it is vis-a-vis Somalia or any of the 
other countries in the region.
    Senator Coons. Ms. Lindborg.
    Ms. Lindborg. I would just add to that. We are in a really 
critical time as we move toward these important milestones that 
will be critical for seizing this moment for helping Somalia 
move forward. This is an effort that the United States is doing 
in close partnership with the international community. There 
are a number of important meetings that we are constrained in 
being able to participate in right now. At a moment where we 
want to be at the table to talk about the importance of 
accountable transparent governance and of a functioning 
government, we are not able to be there in addition to the 
constraints to our travel and our ability to work with the 
interagency because of furloughs.
    Senator Coons. Several of you mentioned that this 
particular structure, AMISOM, is in some ways a model of 
African-led regional security being successful. I would be 
interested in each of your respective spheres sort of how you 
see that model playing out going forward. What are the lessons 
learned, strengths, weaknesses? I have represented in a number 
of settings that this is something we really ought to be 
looking to more broadly where we have a number of different 
nations coming together operationally driving al-Shabaab out of 
significant swaths of the country, stabilizing the security of 
the country, making possible development, improved security, 
improved statecraft. Overall, frankly, it has gotten very 
little attention in the domestic U.S. press, but compared to 
what was the condition in Somalia a year or 2 ago, this has 
been a truly outstanding success of a model that is AU-chaired 
and African-led. So I would be interested, if you might, Madam 
Secretary, what you see as the lessons learned, the strengths 
and weaknesses, and what we should be expecting going forward 
for the AMISOM mission. And then each of you in turn.
    Ms. Thomas-Greenfield. Thank you very much for that 
question.
    And I do think the AMISOM model is a model that can be 
used. Some of the lessons, as I look back on this in my limited 
time in this office, but with much experience on the continent, 
is, I think, we have to do a better job of ensuring that we 
provide the support that AMISOM needs to do its job. While at 
the UNGA in New York, I met with the Foreign Minister of 
Uganda, and he said we have the people to put on the ground, 
but we still need the support to move those people around. We 
need the enablers. And because of our budget cycles and how we 
budget, we are not always able to provide them with that 
support as early as they need that support. We also want to be 
able to continue to support them, and each year, because of our 
funding cycles, sometimes there is a delay in when we can get 
our support out to them.
    You talk about how we might use this model. A similar model 
was used in Mali where I was a few weeks ago for the 
inauguration of the new President of Mali. In less than 18 
months, we were able to bring that country back into a 
democratic country moving forward because of an African-led 
process supported by us.
    Thank you.
    Senator Coons. And what sort of lessons might we learn 
about the stabilization and the transfer of security function 
from 11 to the Somali National Forces, Assistant Secretary 
Dory?
    Ms. Dory. I think as we look at the success of AMISOM--and 
there are many successes associated with it--one of the 
challenges is just the pulling together all of the external 
supporters with all of the different coalition of the willing 
that the troop contributing countries who step up and answer 
the call and just managing across that complexity is one of the 
biggest challenges and can make things slower and less 
efficient than otherwise would be the case.
    I do think you are seeing replication of the model in other 
locations because it is successful, whether it is countering 
the Lord's Resistance Army that we have talked about in other 
contexts where you have the United States and other enabling 
regional partners taking the lead to pursue the Lord's 
Resistance Army, a similar model in the Mali context where you 
had regional forces first in the African-led International 
Support Mission to Mali --AFISMA--configuration and now as a 
U.N. mission, that are being supported by external parties as 
well. So I think the replication is an indicator of the 
success.
    Our part is really bringing the targeted training capacity 
and bringing in enablers, as Assistant Secretary Thomas-
Greenfield referred to. Sometimes that can be quite 
challenging, especially in the area of logistics, which is the 
true shortfall when you look across the many different missions 
on the African Continent, both the logistics capabilities of 
African partners themselves and then the tools with which we 
are able to support them.
    Thank you.
    Senator Coons. Building on airlift capacity is, I think, a 
long-term goal we all share.
    And if I might, just in conclusion, Assistant Administrator 
Lindborg, how do you see AMISOM's success in terms of 
stabilization and security contributing to the development 
picture you mentioned in your testimony, that they are 
inextricably intertwined?
    Ms. Lindborg. Absolutely. Somalia is a perfect example of 
how one needs security for development but also how development 
leads to greater security. And so as we continue to push our 
development programs into south-central Somalia, the 
opportunity is to help citizens gain greater confidence in both 
local and central governing structures and to receive the 
services that are absolutely essential for their well-being and 
for their support for the way forward. This is supported by 
greater security. So it is a hand-in-hand proposition that 
going forward will be important that we are able to realize the 
gains from both security and development working together for 
peace and prosperity.
    Senator Coons. Thank you.
    Senator Flake.
    Senator Flake. Thank you. Thank you all.
    Continuing on AMISOM, I was just looking at a map provided 
by the Atlantic Council in terms of the area of the country 
controlled by government forces and whatever, and it is pretty 
small. Ms. Dory, can you explain how far out of Mogadishu does 
the government's writ actually go? I mean, how much are we 
actually controlling outside through AMISOM or the security 
forces there?
    Ms. Dory. Right. So what AMISOM has succeeded in doing 
essentially is taking away the revenue generation prospects for 

al-Shabaab that were related to the port operations in both 
Mogadishu and Kismayo. So in focusing first on those population 
centers and liberating them from al-Shabaab, that was a 
critical step taken in terms of weakening their sustainment 
capabilities. As you have seen on the map, the forces have 
since pushed out of both of those population centers farther 
into the countryside, but there are swaths of Somali territory 
that are not under effective control of the central government 
at this point. And there are corridors in between, some of the 
major centers that are maintained and patrolled by AMISOM. But 
it is quite clear that there remains additional territory that 
is available to al-Shabaab as a sanctuary, and that is really 
the work ahead both with AMISOM and with the Somali National 
Army to continue to pressure al-Shabaab so that they continue 
to fracture and continually are displaced from the locations 
that they are currently occupying such as Barawe which we saw 
over the weekend is a current node for al-Shabaab.
    Senator Flake. Is AMISOM engaged in counterinsurgency 
activities at all, or is that just the security forces?
    Ms. Dory. AMISOM is pursuing al-Shabaab directly alongside 
the Somali National Security Services. So they are enabling one 
another. At various times, one takes the lead or the other 
takes the lead. But in the vast majority of operations, they 
are operating together.
    Senator Flake. And in 2010, the AU wanted to change the 
role of AMISOM from peacekeeping to peace enforcement, and that 
was objected to by the United Nations. Is that a distinction 
without a difference, or does that matter?
    Ms. Dory. I think that refers to the rules of engagement 
that they are operating under, and AMISOM at this point is 
operating with robust rules of engagement where they are not a 
defensive force, they are an offensive force. They are making 
peace.
    Senator Flake. Now, is the transition happening quickly 
enough in terms of turning over the security functions to the 
country's security forces?
    Ms. Dory. In my view, the transition is happening as 
quickly as it can, which by definition is slowly because the 
ability of the Somali National Army to actually take over is 
quite constrained at this point. The Somali National Army is 
about 17,000 strong at this point based on the count from their 
chief of defense, General Elmi, but of that force, many are 
militia forces or other individuals who are under the banner of 
the Somali National Army, some of whom have been trained. Many 
have not. They have been trained by a variety of external 
sources. So there are some major capability gaps as far as the 
Somali National Army's ability to step in for AMISOM. And I 
think we would forecast that it will be a period of time before 
the SNA is ready to step up and take over the mission currently 
performed by AMISOM.
    Senator Flake. Ms. Lindborg, you were talking about the 
government there. You mentioned that the Parliament is 
democratically elected, as well as the President or you 
referenced them as democratically elected. Is it not more of an 
appointment there by tribal elders? And then the President is 
then elected by the MPs. But how much of an election is it for 
the Parliament, and how much legitimacy do they have going 
forward?
    To preface that, there was some criticism. I think the 
Economist wrote a year ago or so that some of the MP slots were 
going for about $25,000, and there was some corruption alleged. 
Can you talk about that and how we are moving away from that or 
what legitimacy the government has going forward?
    Ms. Lindborg. Yes. There have definitely been challenges of 
corruption in Somalia through the years. The importance is the 
commitment of the current government to move beyond that as 
they look at that list of benchmarks with the elections and the 
new constitution over the next several years. It is a 36-month 
timetable.
    There is historically a great deal of factionalism within 
Somalia that will be important to have the kind of inclusive 
dialogue over the next 36 months to find a way forward that 
enables that kind of participation in the solution. This is one 
of the best opportunities that Somalia has had in two decades 
with an inclusive process, and that kind of planning will have 
to continue where you bring in regional entities and you bring 
in a lot of the local governments that have been critical for 
holding communities together over the last several decades but 
now need to come together under an umbrella of the central 
government or a federated government.
    Senator Flake. The President was elected by the Parliament. 
The Parliament was elected or appointed? The current 
Parliament.
    Ms. Lindborg. It was selected by this assembly process, and 
then, yes, they selected the President. And as we gear toward 
the 2016 Presidential elections.
    Senator Flake. Great. Back to the security environment, the 
raid that occurred last weekend, nobody faults--I guess it was 
not successful. We did not get our target there, and I am sure 
the commanders made the right decision. But how does that 
affect our policy going forward? What challenges does that 
present to us to have another failed raid into the country? 
Does that embolden al-Shabaab, or what happens, Ms. Dory, 
moving ahead?
    Ms. Dory. From my perspective, taking direct action is one 
element of the multifaceted approach being taken vis-a-vis al-
Shabaab and the circumstances under which that is pursued were 
outlined by the President in his National Defense University 
speech. There are selected cases where that will be pursued.
    More importantly, though, is the indirect approach and the 
three major pieces of that. We have talked about two of them in 
particular. One is continuing to support AMISOM and its 
activities against al-Shabaab. The second is working with 
Somali National Security Services and their ability to develop 
an effective counterterrorism capability going forward. And the 
third that we have not really touched on yet is the work that 
we are doing with the other partners in the region on a 
bilateral basis, whether it is directly with the Kenyans, 
directly with the Ethiopians, Djibouti, and Uganda. All of them 
have faced various threats from al-Shabaab based on their 
willingness to participate in AMISOM. Several of those have 
borne the results in terms of attacks in their territory. And a 
key part of the strategy vis-a-vis al-Shabaab is also the 
continued support to those bilateral partners in the region.
    Senator Flake. Thank you, Mr. Chairman.
    Senator Coons. Thank you.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I thank the witnesses.
    Ms. Dory, the operation in Somalia--it is my understanding 
from published reports that they did not go forward with the 
mission because there was greater resistance than they had 
anticipated. Is that an accurate media depiction of what 
happened?
    Ms. Dory. Senator, I think to discuss the operational 
details; we would have to move into a different setting.
    Senator McCain. Well, could you say whether the media 
reporting was accurate or inaccurate?
    Ms. Dory. I think to get into the operational details that 
would confirm or not confirm the media reporting would require 
us to move into a different setting.
    Senator McCain. So I guess what you are saying is that we 
have to have information in a secure setting, but it is OK if 
the media report events and yet you can neither corroborate nor 
deny those events. Is that correct?
    Ms. Dory. That is correct in this setting.
    Senator McCain. Well, do not be surprised, Ms. Dory, when 
there is skepticism here about the activities that you engage 
in. The fact is it was a failure. The fact is that there was an 
intelligence failure there, otherwise the mission would have 
been completed. And I guess maybe in another setting, maybe in 
the New York Times or the Washington Post, we will find out 
exactly why it failed.
    Ms. Dory, given last weekend's operation was justified 
under the AUMF which, we understand from his State of the Union 
speech, President Obama seeks to repeal, how will terrorist 
groups like 
al-Shabaab be targeted and will these types of operations be 
justified in the future, absent an AUMF?
    Ms. Dory. Senator, I believe going back to the earlier 
discussion about the direct and indirect approach, at the 
present time Authorization for Use of Military Force--AUMF--
remains in force and is legally available for the direct 
approach, and the corollary to that is enabling the regional 
partners, whether it is the Somalis directly, whether it is the 
regional players who are willing to participate in AMISOM as 
troop-contributing countries, or others on a bilateral basis, 
that that will continue to be a core element of the strategy in 
terms of countering the activities and disrupting 
al-Shabaab.
    Senator McCain. Absent an AUMF, would this operation have 
been legal?
    Ms. Dory. Senator, I am not prepared with the legal 
analysis for you today, but I can come back to you with a 
response on that.
    [The following information for the record from the 
Department of Defense to the above question follows:]

    Absent the 2001 AUMF, the President always reserves the right under 
constitutional authority to order certain types of military action in 
the interest of national security. For example, U.S. Armed Forces took 
limited forcible action against elements of al-Qaeda in the 1990s, 
prior to the enactment of the AUMF. Accordingly, without the current 
express statutory authorization, the recent counterterrorism operation 
in Somalia would have been permissible.

    Senator McCain. Is it your opinion as to whether it would 
be legal absent an AUMF?
    Ms. Dory. I do not have an independent personal opinion to 
complement the legal analysis at this point.
    Senator McCain. Ms. Linda Thomas-Greenfield, in Somalia it 
is my understanding that most of the work is being done by 
private contractors. Is that true?
    Ms. Thomas-Greenfield. We do have private contractors 
assisting us in Somalia, but we are using a mixture of that, as 
well as direct support to our AMISOM and other strategic 
partners such as the Ethiopians, and we also work very, very 
closely with AFRICOM and have some AFRICOM support there.
    Senator McCain. Does that mean you have American troops in 
Somalia?
    Ms. Thomas-Greenfield. No, sir. We do not have troops, but 
we do have an advisor working with the Somalia Government and 
we do work with the Somali national military outside of Somalia 
doing training, and we also occasionally send people in to do 
training with them.
    Senator McCain. How do you maintain oversight of what these 
contractors are doing if there is no American military there?
    Ms. Thomas-Greenfield. We do send people in on a regular 
basis to monitor when we are able to travel, when security 
allows us to travel inside. And that is part of the issue that 
we have, that we are not able to travel on a regular basis, but 
when we are able to travel, we are able to do that kind of 
monitoring. And we also work and monitor them through our 
operations in Nairobi.
    Senator McCain. These contractors are often operating in 
what is effectively a combat zone. Would you agree?
    Ms. Thomas-Greenfield. Occasionally it is a combat zone.
    Senator McCain. You spoke about the goal of normalizing our 
military-to-military relationship with Somalia. Could you 
describe what that would look like?
    Ms. Thomas-Greenfield. What I would hope for--and it was 
DDAS Dory who talked about the military-to-military 
relationship. It is my hope that once the security situation 
there is enabling, that we would have our military doing 
regular programs through the same kinds of programs that we do 
elsewhere in Africa that provide direct training and support to 
the Somali military. One of our primary goals is to build a 
professional army there that is able to provide security and is 
professional and has capacity to respond to al-Shabaab.
    Senator McCain. On what grounds did we decide to send 
contractors in as opposed to our military in? Was it the 
threat? Was it contractors do a better job? What guided that 
decision?
    Ms. Thomas-Greenfield. We do a mix. We have always had 
contractors who have supported our efforts, but in some places 
we do have military. So it was not a decision that we would 
only use contractors. I think contractors were simpler for us 
to use on this occasion, but at a point when the security 
situation changes, we certainly would look at other options.
    Senator McCain. So it was based on the security situation.
    Ms. Thomas-Greenfield. I think that was part of the issue.
    Senator McCain. Well, if it is the security situation that 
would guide your decision whether to send them in, I would 
imagine it was the security situation that led you to keep them 
out.
    I thank the witnesses.
    Senator Coons. Thank you.
    As the Senator referenced and as a number of us have 
discussed, there have been developments in the region, both in 
Kenya and Somalia that I think called for a classified 
briefing, particularly on the Westgate attack in Nairobi and 
some of the intelligence gathered from there and the regional 
implications, as well as recent developments in Somalia. And I 
would welcome the opportunity to discuss the timing in which 
that might be possible.
    Senator McCain. Could I just say I am sure the chairman 
understands the frustration when we read things in the media 
that are believed to be factual and we cannot find out in open 
session whether it is true or not. I think the American people 
probably deserve to know if it is carried in the media.
    Senator Coons. I suspect we broadly share frustration about 
many of the things we read in the media, not all of which I 
believe. But I do think at the outset of the hearing I 
expressed my gratitude to the witnesses for their ability to 
come today given the impact of the shutdown on departmental 
resources, legal advice, preparation, and otherwise. And I do 
think it is appropriate for us to continue some of this line of 
dialogue in a classified setting, if we could, as soon as 
possible.
    If I might, Assistant Administrator Lindborg, I would be 
interested. USAID has run programming designed to counter 
violent extremism and jihadist tendencies within Somalia. Could 
you say something about the small scale or local or quick 
impact projects that I believe have been sort of the exemplar 
of this sort of ongoing effort in the areas that have been 
secured through AMISOM efforts to try and stabilize the 
situation and then lay the groundwork for more long-term 
development work?
    Ms. Lindborg. Yes. You characterized that exactly right. 
There is an opportunity to show quick wins to some of the 
communities where you have initial greater security and work 
with them so those communities identify what are their 
priorities and coinvest with them in a way that enables local 
governance structures to have greater credibility with their 
communities and to align that then with the central approach as 
it evolves and address essential services, things like 
additional schools, basic infrastructure.
    At the same time, we are very focused on what is a large 
youth population to provide alternatives to extremism and 
through our Somali youth initiative working to both provide 
secondary education opportunities, as well as economic options 
and ways for them to participate in civic life. We think this 
is absolutely critical especially for those groups.
    And with your permission, I also wanted to just clarify 
Senator Flake's question about the democratic election of the 
President and the assembly. The constituent assembly was formed 
and they then elected the President. Somalia is not currently 
able to have the kind of representative elections that we think 
about in this country. That is a part of the big effort over 
the next several years, is to provide that kind of election 
commission and voter registration that they are simply not 
equipped to do right now. So there is a difference between 
democratically elected and elected through representative 
voting that I wanted to just use the moment to clarify.
    Senator Flake. Yes. I just was taken a bit aback when you 
said ``democratically elected'' earlier on. It is more like 
selected. And I agree we are not at a point where we can expect 
anything else, but we cannot lead people to believe that we 
have a democratically elected government there.
    Ms. Lindborg. It was not a full every voter through the 
country but a cross section in this constituent assembly which 
did provide a legitimate government to enable us through this 
important period at the same time that we are working at the 
community level to enable those gains to be realized.
    Senator Coons. And the overarching goal of the 2016 process 
is to ultimately get to a place where a legitimate national 
election is possible.
    Ms. Lindborg. That is right.
    Senator Coons. Universal suffrage.
    Ms. Lindborg. Absolutely, with a constitution. And so it is 
also the process of drafting the constitution and enabling a 
process of reconciliation and a more inclusive dialogue 
including, by the way, the diaspora, which is an important 
player in all of this.
    Senator Coons. A steady transition from 20 years of 
statelessness, lawlessness, and violence to a functioning 
democracy is part of the objective of this hearing is to 
understand how best we can support that work.
    You have just come back from the new deal conference. I 
would be interested in hearing in a little more detail how the 
international community is coordinating its support for this 
ongoing transition in Somalia and what you see as our role and 
the international community's role in how well coordinated it 
is toward the goals we have been discussing.
    Ms. Lindborg. I think this is an essential opportunity 
because it enables the international donor community to come 
together in a more coordinated way and to support a plan and a 
framework that is owned by the Somalis with the key priorities 
that were laid out. We are able to work together against those 
priorities, and there are conversations, very vigorous 
conversations, with the U.K., with Sweden, and our other 
development partners on how to ensure that our support equals 
and aligns behind the key priorities.
    There is also a timing urgency here, that it is in these 
moments where there is this rush of confidence and the sense of 
possibility that we step forward in a coherent manner that 
moves us forward against a very ambitious timetable. So it is 
important to grasp, as they call this, ``the golden hour'' of 
possibility and enable that confidence to turn into real 
results.
    Senator Coons. Thank you.
    Madam Assistant Secretary, if I might, what is our overall 
strategy--help me better understand it--to simultaneously 
strengthen ongoing Somali-led efforts to develop centralized 
state institutions and a coordinate federal system given clan-
based power centers and some recent ad hoc efforts to form 
federal states such as Jubaland. My impression from your 
opening testimony is you think there is steady progress toward 
both, but there is some tension between whether there is a 
centralized strong state or a really federalized structure. 
What do you see as our strategy and the path forward in this 
particular part of the process?
    Ms. Thomas-Greenfield. Our primary goal is that there will 
be a strong federal framework that will allow the various 
components and various groups outside the central government to 
participate in a process of governing the entire country of 
Somalia. We do need a central government that can provide 
services, that can lead, that can develop the policies and 
strategies going forward, but that government has to recognize 
the components outside of the central government. So we have 
encouraged cooperation and implementation of the federal 
framework. We have encouraged the government to be in close 
coordination and cooperation with Somaliland. We were very 
supportive of the Jubaland agreement, and we are encouraging 
further agreements along those lines. The President of Somalia 
has expressed his views that he is prepared to move forward in 
that direction, and we are backing him in those efforts.
    Senator Coons. Terrific. Thank you very much.
    Senator Flake.
    Senator Flake. Ms. Thomas-Greenfield, you mentioned $140 
million going to, I think you said, economic growth activities 
and democracy activities. Can you further detail where that is 
going and who is administering that? I think you mentioned the 
figure $140 million. Right?
    Ms. Thomas-Greenfield. That's correct. AID Assistant 
Administrator Lindborg will address those details. Some $170 
million is going to our efforts to support the capacity of the 
Somali National Army and supporting training for that, but we 
also are building democratic institutions that are being worked 
with USAID.
    Senator Flake. OK. Can you further detail the democracy 
activities or economic growth activities that we are involved 
in?
    Ms. Lindborg. Sure. We have about a $64 million program for 
2011 and 2012--sorry--2012 and 2013 that is working to--some of 
the activities that I already detailed to help set up the 
constitution, to support the move toward elections. That also 
includes work in Somaliland and Puntland with those governments 
to continue to support the very important advances they have 
already made on democratic approaches, transparency, 
accountability, and to align their policies with the federal 
government and includes a lot of the work on setting up the 
independent election commission and the electoral law, the 
mechanics, to make the gains that we need in the next 36 
months.
    Senator Flake. Turning to Somaliland and Puntland, you kind 
of make it sound as if they are okay with this arrangement, and 
that is not the sense I have received from them. They want to 
be recognized on their own. Can you kind of explain the 
difference here?
    Ms. Thomas-Greenfield. Yes, and that is the sense we have 
gotten as well, that they have worked to develop and stabilize 
the areas that are under their control, but we are following in 
the lead of the AU. We have not recognized them as separate 
governments at this time because the AU has not made that 
recognition. But we continue to support their efforts to 
provide security and services to the people that they are 
currently supporting.
    Senator Flake. You mentioned some of the funding is 
actually going to Somaliland and Puntland to help them. What is 
their understanding as to what they are to do with this money? 
Are they establishing their place in a federal system? Because 
it sounds to me, when you talk to them, that they have a 
completely different idea of where they are going. What is your 
understanding, Ms. Lindborg?
    Ms. Lindborg. As I indicated, there is continued help 
particularly to support the accountability and transparency 
that they quite appropriately have already made gains with, and 
at the same time, we are doing it in a way that very expressly 
indicates the goal of having that align with the central 
government in a centrally federated system.
    Senator Flake. And they accept that?
    Ms. Lindborg. There are conversations ongoing.
    Senator Flake. All right. Just kind of a general 
observation and I will go ahead and stop. But we all know this 
is tough work. This is a tough environment. You know, where you 
had basically a lawless situation with no central government 
for 20 years, nobody can expect it to immediately transform 
into some flourishing democracy. We understand that. But I get 
the sense from the testimony that you are painting a little 
rosier picture than actually exists there, and I am not sure 
that that does us any good as those who have to authorize and 
appropriate money to sustain programs. And I will be interested 
in the next panel to see their thoughts on that.
    But just to let you know, we recognize this is tough and it 
is going to be a rocky road, but it does not do us any good to 
gloss over difficulties. And my suspicion is that, you know, 
the government--they are trying. We want them to succeed. We 
recognize them. But there are likely large swaths of the 
country that do not recognize the government as legitimate, and 
we need to recognize that and move forward. But it is a tough 
road. I know we are doing the best we can, but it is likely a 
more difficult situation than perhaps we are told.
    But I thank you.
    Senator Coons. Thank you, Senator Flake.
    Senator McCain.
    Senator McCain. No more questions.
    Senator Coons. For this panel then, if I might--we do have 
a whole other panel, and we hope to come to some conclusion of 
this hearing. I want to thank you for your testimony and for 
your very hard work. There has been significant progress made 
in Somalia relative to where it was 2 years ago, a lawless 
state characterized by widespread piracy, humanitarian crises, 
and the utter absence of a functioning federal government. So 
to Senator Flake's point, great progress has been made, but 
significant hurdles and challenges remain, as I believe you 
have been clear. And I look forward to working with you closely 
as we articulate together a coherent U.S. strategy moving 
forward to take advantage of this moment and this opportunity.
    Thank you.
    And I would like to invite our second panel to take their 
places in front of the committee.
    [Pause.]
    Senator Coons. I would like to welcome our second panel 
today: first, Andre Le Sage, senior research fellow at the 
National Defense University's Institute for Strategic Studies; 
Abdi Aynte, founder of the Heritage Institute for Policy 
Studies in Mogadishu; and E.J. Hogendoorn, deputy director for 
Africa at the International Crisis Group. And I would like to 
invite each of you in turn to make your opening statement, if 
you might, to the committee.
    Dr. Le Sage.

  STATEMENT OF DR. ANDRE LE SAGE, SENIOR RESEARCH FELLOW FOR 
  AFRICA, INSTITUTE FOR NATIONAL STRATEGIC STUDIES, NATIONAL 
               DEFENSE UNIVERSITY, WASHINGTON, DC

    Dr. Le Sage. Thank you, Senator Coons, Senator Flake, and 
members of the subcommittee. It is an honor to appear before 
you today.
    As requested in your invitation, I will focus my remarks on 
the status of al-Shabaab and international efforts to defeat 
that terrorist group. I would be grateful if my full written 
statement could be included in the record.
    Senator Coons. Without objection.
    Dr. Le Sage. Al-Shabaab has been weakened as a national 
insurgency force. However, it retains the capability to conduct 
targeted guerilla and terrorist attacks against Somali, United 
States, and partner nation interests. This was vividly 
demonstrated in September when al-Shabaab-linked gunmen stormed 
the Westgate shopping complex in Nairobi killing scores of 
innocent civilians. Without additional efforts to defeat al-
Shabaab, it is only a matter of time before the group and its 
affiliates undertake additional deadly attacks.
    Al-Shabaab, currently led by the group's emir, Ahmed Abdi 
Godane, has controlled much of south-central Somalia since 
2006. However, over the past 2 years, the tide has turned 
dramatically. AMISOM has partnered with former clan militia 
that have integrated into the Somali National Army. They 
pressured al-Shabaab to withdraw from Mogadishu in August 2011 
and then seized neighboring towns. In 2012, Ethiopia and Kenya 
also worked with clan militia to liberate the towns of Baidoa 
and Kismayo. In central Somalia and Puntland, clan leaders and 
local administrations have also mobilized to resist the al-
Shabaab movement.
    In response to the military superiority of AMISOM in 
Ethiopia, al-Shabaab has avoided conventional engagements. 
Instead the group has shifted its forces to safe havens that 
lie just outside of AMISOM's reach. Examples include Barawe in 
Lower Shabelle, Bulo Burti in Hiran region, and the Golis 
Mountains in Puntland. From these locations, al-Shabaab employs 
its intelligence wing, the Amniyat, to launch hit-and-run 
attacks and place IED's and carry out assassinations and 
suicide bombings. The Amniyat, led my Mahad Karate, is 
comprised of hard-liners loyal to Godane.
    At the same time, al-Shabaab's regional governors are 
essential components of its network. They maintain al-Shabaab's 
control over local populations, allow terrorist training camps 
to operate, raise funds through taxes and extortion, conduct 
recruitment, and manage clan relations.
    As the Westgate attack shows, al-Shabaab also retains a 
significant external operations capability. These individuals, 
including both Somalis and foreign fighters, are only loosely 
under Godane's control. They are dedicated to exporting 
terrorism across East Africa and work closely with affiliates 
such as al-Hijra in Kenya and the Ansar Muslim Youth Centre in 
Tanzania.
    Since becoming the group's emir, Godane has personalized 
command and control and marginalized senior al-Shabaab leaders 
who disagree with his decisions. Long-standing tensions between 
Godane and his deputy, Mukhtar Robow, broke into open violence 
in June 2013. Many analysts hoped this internal conflict would 
weaken al-Shabaab. However, this is not the case. For several 
years, Godane has been building a splinter faction primarily 
based around the Amniyat and has taken control of the group's 
funding and operational planning.
    Al-Shabaab's long-term strategy does remain a matter of 
debate. The group may be playing a waiting game, retreating 
from large battles to preserve its strength and using terrorist 
attacks to stay relevant for as long as possible in hopes that 
the wider political context in Somalia and East Africa will 
change, allowing al-Shabaab to resurge. This would be the case 
if the Somali Government fails, if al-Shabaab can align with 
clan-based opposition groups, or if new regional crises force 
AMISOM troop-contributing countries to depart Somalia.
    Godane and his hard-line supporters have no allusions that 
they can impose an extremist state on Somalia if AMISOM and 
regional forces continue to make the progress they have done 
and the Somali Federal Government works to stabilize the area. 
In this case, the group may be satisfied managing a clandestine 
jihadist struggle that commits nihilistic acts of violence for 
as long as possible.
    To conclude, although al-Shabaab has, indeed, lost control 
of key cities in Somalia, the group has recalibrated its 
approach and remains a vicious enemy. The United States and its 
Somali and international partners need to redouble efforts to 
roll back the group while supporting Somalia's Federal 
Government to consolidate security gains. This requires a 
combination of efforts.
    First, we must revive the regional offensive against al-
Shabaab, including increased operational and intelligence 
support for both AMISOM and Ethiopia.
    Second, it is critical to develop a capable and 
professional national security structure in Somalia that can 
fight side by side with its regional partners.
    Third, additional diplomacy and foreign aid are needed to 
support the Somali Federal Government and the local 
administrations with which it is working to oppose al-Shabaab 
and to build a federal structure. They need to negotiate power 
and resource-sharing deals that allow the country's federal 
structure to function.
    Finally, we must continue supporting Somalia's neighbors, 
particularly Kenya where the Westgate attacks took place, but 
also Tanzania and other countries that serve as hosts to al-
Shabaab-affiliated movements in the region.
    Mr. Chairman, thank you again for the opportunity to 
testify, and I look forward to your questions.
    [The prepared statement of Dr. Le Sage follows:]

                Prepared Statement of Dr. Andre Le Sage

    Thank you and good afternoon, Mr. Chairman, Mr. Ranking Member, and 
members of the subcommittee. It is an honor to appear before you today 
to discuss Somalia's ongoing political and security transition, and the 
ways in which the United States can promote stability and combat 
terrorism in East Africa.
    Mr. Chairman, as requested in your letter of invitation, I will 
focus my remarks on the status of al-Shabaab in Somalia, and the 
progress of international efforts to defeat that terrorist group. 
Before I begin, let me note that my comments reflect my personal 
analysis, not the positions of U.S. policy or the National Defense 
University (NDU).
    My overall assessment is that al-Shabaab has indeed been weakened 
as a conventional insurgency force. However, it retains the capability 
and intent to employ guerilla and terrorist attacks that inflict deadly 
harm against U.S. and partner-nation interests both inside Somalia and 
across the region. This was vividly demonstrated on September 21, when 
al-Shabaab-linked terrorists stormed the Westgate shopping complex in 
Nairobi, Kenya, killing scores of innocent civilians--including 
Africans and non-Africans; Muslims and non-Muslims; men, women and 
children.
    Without additional efforts to defeat the group, it is only a matter 
of time before al-Shabaab undertakes additional deadly attacks. 
Moreover, there is a significant danger that al-Shabaab's brutal 
tactics will set a precedent for other al-Qaeda-affiliates and ``lone 
wolf'' terrorists that are intent on doing harm to the United States 
and its allies.
                    the political & security context
    Al-Shabaab--which is currently led by the group's emir, Ahmed Abdi 
``Godane''--was established by 2004 by a small group of Somali Islamist 
militants. They had been part of an earlier Islamist movement--Al 
Itihad al Islamia (AIAI)--and had provided protection and support for 
the Al Qaeda East Africa (AQEA) cell that was responsible for the 1998 
attacks on the U.S. Embassies in Kenya and Tanzania. As of 2004, al-
Shabaab operatives were functioning independently from AIAI, conducting 
assassinations of Somali peace activists and security officials, as 
well as foreign journalists and aid workers.
    Al-Shabaab's existence became publicly known in 2006 when it served 
as a self-appointed vanguard force within the Union of Islamic Courts 
(UIC). The UIC took control of much of southern Somalia after it 
defeated the clan-based warlords that had dominated southern Somalia 
since the fall of the Siad Barre regime in 1991. Ethiopian military 
intervention in Somalia from 2007-2009 defeated the UIC, and installed 
the Transitional Federal Government (TFG) and African Union (AU) 
peacekeepers in Mogadishu.
    While the TFG languished amidst political infighting, al-Shabaab 
successfully launched an insurgency campaign that gradually retook 
control of southern Somalia. Moreover, al-Shabaab increasingly gained 
control over all foreign fighters in Somalia, including those loyal to 
AQEA. This was a byproduct of the success of international security 
operations targeting senior AQEA operatives Saleh Ali Saleh ``Nabhan,'' 
Fazul Abdullah Mohamed ``Harun'' and others. As a result, the al-
Shabaab movement today combines the traits of a local insurgency 
seeking to impose an extremist Islamic state on Somalia, and the traits 
of a transnational terrorist group that seeks to conduct attacks 
outside of Somalia's borders in the name of global jihad.
    In 2011, the tide began to turn dramatically against al-Shabaab. 
The African Union Mission to Somalia (AMISOM) partnered with former 
clan-based militia in Mogadishu that had been integrated into a nominal 
Somali National Army (SNA). They succeeded in pressuring al-Shabaab to 
execute a ``tactical withdrawal'' from Mogadishu in August 2011, and 
subsequently liberated several key towns in Lower and Middle Shabelle 
regions from al-Shabaab control (including Afgooye, Merka, Jowhar, 
Wanleweyn and others). Combined ground offensives by Ethiopian and 
Kenyan militaries then succeeded in wresting control of those 
countries' border regions from al-Shabaab, and liberated the major 
cities of Baidoa and Kismayo in 2012. Finally, in Central Somalia, 
Ethiopia supported clan leaders and the Sufist movement Ahlu Sunna wal 
Jama'a (ASWJ) to create local administrations that could resist al-
Shabaab's presence.
                      somalia's federal government
    As al-Shabaab lost ground, there was a general assumption that the 
movement was significantly weakened and could be defeated by (1) the 
gradual expansion of AMISOM's area of control, and (2) efforts to build 
a post-transitional national government. Global attention slowly 
shifted away from security issues to Somalia's political scene with the 
establishment of Somalia's Federal Government (SFG) in September 2012.
    The SFG--led by President Hassan Sheikh Mohamud, Speaker of 
Parliament Mohamed Osman Jawari, and other Somali intellectuals with 
longstanding civil society ties--has received remarkable levels of 
international support. This includes inter alia the formal recognition 
of the Federal Government by dozens of countries around the world and 
the reestablishment of traditional diplomatic ties; increased foreign 
aid from the United States and other major donors; the partial lifting 
of the international arms embargo on Somalia; negotiations with the 
World Bank and International Monetary Fund to reestablish formal 
relations; and efforts by the United Nations to shift from Kenya-based, 
cross-border to in-country operations.
    The leadership of the SFG will be critical to completing Somalia's 
transitional process, and they will require substantial international 
diplomatic, military and financial support in the process. At the same 
time, it is important to understand that much of Somalia's political 
and security progress over the past few years has been the result of a 
combination of factors:

    1. Somalia's warlords and militia-factions, which dominated the 
country's political, economic, and security affairs since 1991, were 
disarmed by the Union of Islamic Courts (UIC) in 2006. Since then, the 
warlords have not been able to rebuild their powerbase and no longer 
exercise a veto on Somalia's progress.
    2. At the same time, popular support for al-Shabaab has dwindled 
quickly. When it controlled most of southern Somalia, the group failed 
to govern effectively. It dispensed with international aid agencies 
amidst famine conditions, levied high taxes and forced conscription to 
support the group's war effort, and imposed extremely severe forms of 
shari'a law. As a result, Somalis had little interest in continuing to 
support the group, while more moderate Islamist movements splintered 
away.
    3. Many major clans--whose warlords had been disarmed by al-
Shabaab--have worked to reestablish their political position and began 
to resist the movement. This includes major segments of the Marehan and 
Ogaden in Gedo Region, former supporters of the Rahanweyn Resistance 
Army (RRA) in Bay and Bakol Regions, the Hawadle in Hiraan, and the 
Habr Gedir who supported formation of the Sufist movement Ahlu Sunna 
wal Jama'a (ASWJ) movement, Galmudug State and Himan and Heeb State. 
With assistance from Ethiopia and Kenya, these groups began to create 
local administrations and participate in anti-Shabaab military 
activities.
    4. AMISOM is an overwhelming military force relative to both al-
Shabaab and any clan-based forces that may oppose its mandate. AMISOM 
now requires additional forces and enablers (including helicopters) to 
continue their advance, but thus far have been able to roll back al-
Shabaab and hold locations that they ``liberate.''
    5. Many of Somalia's militia are slowly integrating into battalions 
and brigades that form the nucleus of the Somali National Army (SNA) in 
Mogadishu. Outside the capital city, militia that were initially proxy 
forces for Ethiopia or Kenya may now be incorporated into a national 
command-and-control structure. All of this is supported by Western aid 
that provides salaries, training, equipment and mentors to 
professionalize the SNA--much of which has been funded by the United 
States.
    6. Finally, regional politics across the Horn of Africa have begun 
working in Somalia's favor. In particular, Ethiopia is now working to 
support the SFG, including brokering the recent Addis Ababa agreement 
to form the Interim Jubba Administration. At the same time, countries 
such as Eritrea--which previously supported spoilers of Somalia's peace 
process--are no longer significantly active in the country.

    In addition to supporting the SFG, defeating al-Shabaab and 
building a sustainable post-transition government for Somalia will 
require national, regional, and international efforts to sustain these 
trends.
                 the current al-shabaab threat network
    Despite these positive political developments, al-Shabaab remains a 
determined and vicious enemy. To conserve its forces and resources, al-
Shabaab has avoided direct, conventional engagements with AMISOM, the 
Ethiopian military and the emerging SNA forces. Instead, al-Shabaab has 
withdrawn from their areas of advance and shifted its forces and focus 
in several directions to establish new safe haven areas, including:

  <bullet> Southwest Somalia Safe Haven: A zone in the far southwest of 
        Somalia that lays between the villages of Barawe in Lower 
        Shabelle, Jilib in Lower Juba, Bardhere in southern Gedo, and 
        Dinsoor in Bay region.
  <bullet> Central Somalia Safe Haven: A zone in the central regions 
        north of Mogadishu, based in Bulo Burti village of southern 
        Hiran region and extending west in Bakol region, east to the 
        towns El Bur and El Dheer in Galgadud, and south into rural 
        areas of Middle Shabelle.
  <bullet> Golis Mountains Safe Haven: A small, mountainous zone 
        outside Bosasso city in the northeastern region of Puntland, 
        running from Galgala toward Badhan, and affording al-Shabaab 
        with the potential to attack key Puntland cities including 
        Bosasso, Garowe and Galkayo.
  <bullet> Somaliland Safe Haven: The northwestern area of Somaliland, 
        al-Shabaab likely retains a limited capacity to operate. While 
        al-Shabaab has no standing military capacity in this region, it 
        does maintain a clandestine network capable of terrorist 
        attacks, and a network of facilitators that support 
        recruitment, indoctrination, training, weapons trafficking and 
        support for the movement of men and materiel.

    In these safe havens, al-Shabaab's regional governors and 
ideologues are essential components of the network. They maintain al-
Shabaab's local control, allow for terrorist training camps to operate, 
raise funds from taxes and extorting the local community, and manage 
clan relations and recruitment. Their ranks include well-known al-
Shabaab leaders--such as Yassin Kilwe and Abdulkadir Mumin in Puntland; 
Hassan Yakub and Hassan Fidow in Central Somalia; Yusuf Kabakutukade in 
Middle Shabelle; Moalim Jinow in Bay and Bakol Regions; and Abdirahman 
Fidow and Mohamed Dulyadeen in the Juba Valley area. However, despite 
their critical role in the group's hierarchy, these leaders do not 
appear to be the focus not a focus of counterterrorism efforts.
    Al-Shabaab employs its intelligence wing, the Amniyat, to 
infiltrate SFG- and AMISOM-held cities and to emplace improvised 
explosive devices (IEDs), conduct assassinations or carry out suicide 
bombing attacks. This group, led by Mahad Mohamed Ali ``Karate,'' is 
comprised of hard-liners loyal to al-Shabaab's emir Godane and serves 
as the movement's parallel governance structure to monitor and regulate 
the actions of other leaders who may be opposed to Godane. In addition, 
al-Shabaab's guerilla militias are used primarily for hit-and-run 
attacks against AMISOM and SNA forward operating bases and main supply 
routes.
    Finally, as demonstrated by the Westgate mall attack last month, 
al-Shabaab retains a significant ``external operations'' cadre, 
existing either within or distinct from the Amniyat unit. These 
individuals, including both Somalis and foreign fighters, are dedicated 
to expanding the reach of al-Shabaab and the wider al-Qaeda network to 
conduct terrorist operations outside of Somalia. The region has a long 
history of terrorist attacks, including the 1998 bombings of the U.S. 
Embassies in Nairobi and Dar es Salaam, the 2002 attacks targeting 
tourists in Mombasa, and the 2010 Kampala attacks the end of the 2010 
FIFA World Cup. As al-Shabaab has lost ground in Somalia, more of its 
trained and battle-hardened fighters have focused on other parts of 
East Africa, particularly through cooperation with local affiliates 
such as Al Hijra in Kenya, and the Ansar Muslim Youth Centre (A-MYC) in 
Tanzania.
              sustaining al-shabaab: funding and personnel
    Al-Shabaab's finances have been dramatically reduced as a result of 
its loss of safe haven to the military offensives undertaken by AMISOM, 
regional partners and the SFG. Prior to those offensives, Kismayo 
seaport--from which charcoal and other commodities were traded--
provided al-Shabaab with its primary source of revenue. Nonetheless, 
al-Shabaab is still able to access funds and manage their distribution 
across its areas of operations in order to sustain its personnel and 
undertake guerilla attacks. In particular, al-Shabaab continues to levy 
taxes on national and regional trade routes that cross al-Shabaab safe 
haven areas. The group extorts revenue from major businesses under 
threat of attack and coerces donations in cash or in kind from clan-
based communities in areas that it controls. Finally, al-Shabaab likely 
still receives foreign donations by supporters of its jihadi ideology.
    Al-Shabaab today has a reduced number of personnel as the result of 
two factors: first, the growing resistance of major Somali subclans, 
and second, the successful military offensives by AMISOM, regional 
partners and the SFG. As a result, many clan-based militia who joined 
al-Shabaab when the movement occupied their traditional clan areas or 
who supported al-Shabaab in order to gain financial payments have left 
the movement. The reduction in the number of clan-based personnel 
supporting al-Shabaab is a positive factor in so far as the reduction 
degrades the fighting capabilities of the movement. However, a smaller, 
more ideologically committed force is easier to sustain for al-
Shabaab's leadership, particularly given the group's potentially 
declining access to funds.
    Nonetheless, al-Shabaab has demonstrated its capacity to sustain 
thousands of personnel in its safe haven areas, and remains able to 
surge militia in the hundreds against specific targets, particularly in 
rural areas of south-central Somalia. In addition, some Somali sub-
clans--for example, the Duduble and Murosade in Mogadishu and Central 
Somalia, or the Warsangeli and Lelkase in Puntland--have aligned 
themselves with al-Shabaab in order to strengthen their lineages' hand 
in longstanding struggles against other subclans for local political 
and economic control. This affords al-Shabaab a continued supply of 
militia recruits and funding, as well as safe haven and safe passage.
                    al-shabaab's internal conflicts
    Since its creation, al-Shabaab was nominally led through the 
collective decisionmaking of its Shura Council. However, following the 
appointment of Godane as the group's emir, he has personalized command-
and-control, marginalized other senior al-Shabaab leaders who disagree 
with his decisions, and even arrested or killed Somali and foreign 
fighters who seek to develop their own operational plans.
    Longstanding leadership tensions between al-Shabaab's emir Godane 
and his deputy, Mukhtar Robow, broke into open violence in June 2013. 
Forces loyal to Godane killed several key leaders, including Godane's 
mentor, Ibrahim Haji Jama ``al- Afghani.'' Following the fighting, 
Robow has sought protection in has clan's home on the border between 
Bay and Bakol regions. Meanwhile, the U.S. jihadist Omar Hammami ``Abu 
Mansor al-Amriki'' was killed by Godane's faction, Hassan Dahir Aweis 
(one of the original AIAI leaders from the 1990s) fled and was arrested 
by the SFG, and other senior leaders expect they may be next.
    Many analysts and policymakers hoped this internal conflict would 
weaken al-Shabaab and make it less capable to launch attacks. However, 
that is obviously not the case. For several years, Godane had been 
building and taking firm control over a splinter faction of al-
Shabaab--primarily based around the Amniyat intelligence unit--and he 
has centralized control over the al-Shabaab movement, including its 
forces, funding and operational planning.
    It is worth noting that the Amniyat, which leads attacks against 
Somali and AMISOM forces in Mogadishu, was barely impacted when the 
infighting broke out this past summer. Their attack rate in Mogadishu 
never fell, and the severity of those attacks never dulled. Over the 
past year, they have also succeeded in conducting several major attacks 
including those against senior SFG officials, the Turkish Embassy, the 
United Nations compound, as well as popular restaurants and hotels.
             al-shabaab's strategy and the westgate attack
    Al-Shabaab's long-term strategy is not entirely clear. On the one 
hand, the group may be playing a ``waiting game.'' By this analysis, 
al-Shabaab is working hard to stay alive, to preserve its strength and 
to stay relevant for as long as possible. It hopes that the wider 
political context in Somalia and the region will change and al-Shabaab 
will have an opportunity to resurge. This would be the case if the SFG 
fails to rebuild a national government, if new clan-based opposition 
groups emerge with which al-Shabaab can align its movement, or if new 
regional crises force AMISOM to depart Somalia.
    On the other hand, Godane, his loyal Amniyat structure, and his 
external operations cadre may have no illusions that they will 
eventually succeed in imposing an extremist Islamic state on Somalia. 
By this account, the group is satisfied with managing a clandestine 
jihadist movement that inflicts serious harm through nihilistic 
violence for as long as possible.
    In this context, the attack on the Westgate shopping mall in 
Nairobi should not come as a surprise. Al-Shabaab and its regional 
networks across East Africa have long harbored both the ambition and 
capability to conduct such a deadly attack. Nonetheless, the attack 
begs a series of questions regarding the level of external threat posed 
by al-Shabaab.
    There should be no doubt that al-Shabaab's emir and spokesman both 
claimed credit for the attack, and have threatened additional 
bloodshed. Almost certainly, the Westgate attack was a combined 
operation involving an element of the al-Shabaab network in Somalia, 
and an element of the its Kenyan affiliate, the Al Hijra network. From 
an intelligence perspective, the key is to identify exactly which 
individuals were involved and their chain of command. Was the attack 
authorized and directed by Godane to demonstrate that he is now fully 
in charge of the al-Shabaab movement and indispensable to al-Qaeda's 
senior leaders despite his group's recent infighting? Or, was the 
attack planned and undertaken by remnants of the AQEA network and 
foreign fighters that have felt undermined by Godane--acting 
independently and forcing al-Shabaab leadership to catch up?
    It will also be critical to assess what form of ``intelligence 
failure'' allowed the Westgate attack to happen. In short, we need to 
understand why the attack cell was not identified in advance. How long 
was the attack cell in Kenya before they took action? Was the attack 
cell ``too quick'' from its infiltration into Kenya until the execution 
of their plot for local security service (even with foreign assistance) 
to take action? Was the attack cell in Kenya for a long time and parts 
of previously identified, but considered a ``watch target'' by mistake? 
Or, was the attack cell not identified at all due to sufficient 
compartmentalization and operational security?
    The challenge in answering these questions today is the huge amount 
of contradictory information that exists in the public domain, and the 
possibility of developing reasonable hypotheses to support many 
different assessments. Answers to these questions will eventually 
emerge as the investigation moves forward. In the meantime, it is 
critical to focus on the best possible response to prevent such an 
attack from happening again.
                continuing the fight against al-shabaab
    As detailed above, al-Shabaab has indeed been weakened as a 
conventional insurgency force inside Somalia. However, the group has 
recalibrated its approach and retains the capability and intent to 
employ guerilla and terrorist attacks. In response, the United States 
and its Somali, regional and international partners need to redouble 
their efforts to roll back al-Shabaab and build a national, federal 
government for Somalia that can consolidate the country's security 
gains into the future.
    Succeeding to defeat the al-Shabaab insurgency and prevent the 
resurgence of 
al-Qaeda-inspired terrorist cells across East Africa will require a 
combination of efforts:

  <bullet> Reviving Regionally-Supported Offensive Operations against 
        al-Shabaab:

      <all>  Increase intelligence collection and sharing, as well as 
            operational support, for regional security partners to 
            support targeted operations that remove key al-Shabaab and 
            other al-Qaeda-linked operatives from Somalia, and disrupt 
            terrorist training camps.
      <all>  Strengthen regional military commitments to sustain and 
            increase the 
            capabilities of AMISOM and their ability to work alongside 
            the SFG's security structure and regional partners, 
            including Ethiopia.
      <all>  Invest in the development of a capable and professional 
            national security structure in Somalia, including the 
            Somali National Army (SNA), the National Intelligence and 
            Security Agency (NISA) and the Somali National Police 
            (SNP), including careful attention to the integration of 
            anti-Shabaab forces at the local and regional levels.

  <bullet> Support for the development of Somalia's federal system:

      <all>  Provide diplomatic and foreign aid support to the SFG and 
            its local-level Somali governance partners to achieve 
            negotiated durable political agreements, power-sharing and 
            resource-sharing deals that allow for the emergence of a 
            federal governing system.
      <all>  Address the vexing and politically charged question of how 
            ``federalism'' will be implemented, including the need to 
            finalize the Provisional Constitution and to negotiate with 
            both longstanding, quasi-independent administrations in 
            Puntland and Somaliland, and nascent, clan-based 
            administrations formed across south-central Somalia.
      <all>  Ensure the continued formation of national security forces 
            that reflect the decentralized, clan-based reality of the 
            country's post-war political economy, which is enshrined in 
            Somalia's new federal structure.
      <all>  Support the SFG and its federal units to develop, 
            resource, and implement sectoral strategies and regulatory 
            mechanisms to ensure the delivery of essential public 
            goods, including health care, education and development, as 
            well as training a new civil service cadre after 20 years 
            without a functioning government.
      <all>  Support the SFG and its federal units to establish 
            positive control over Somalia's resource flows, including 
            anticorruption efforts and tax revenues from Mogadishu's 
            key economic infrastructure points (airport, seaport, 
            checkpoints, and markets).

  <bullet> Support for regional partners to combat terrorism:

      <all>  Continue support for Kenya, Tanzania, Uganda, Ethiopia and 
            other regional partners who are vulnerable to attacks by 
            al-Shabaab and its regional affiliates, including Al Hijra 
            and the A-MYC.
      <all>  Build regional security cooperation between these 
            countries and the SFG to prevent future attacks.

    Senator Coons. Thank you very much, Dr. Le Sage, for that 
testimony. I look forward to the opportunity to ask questions, 
if I might.
    Next, Mr. Aynte.

   STATEMENT OF ABDI AYNTE, DIRECTOR, HERITAGE INSTITUTE FOR 
               POLICY STUDIES, MOGADISHU, SOMALIA

    Mr. Aynte. Chairman Coons, Ranking Member Flake, thank you 
very much for the opportunity to participate in this important 
panel at this critical juncture in Somalia's history.
    One year after the formation of the first nontraditional 
government in over 20 years, there are reasons to be cautiously 
optimistic about the future of Somalia. The Somali people are 
determined more than ever to reclaim their dignity and, above 
all, their place among the community of nations.
    They have also identified a common enemy to peace and 
stability. Citizens across the country are countering al-
Shabaab's destruction and despair with construction and hope. 
Signs of economic vibrancy are reemerging. The Somali diaspora 
are returning in large numbers, bringing with them much-needed 
skills, business opportunities and, most importantly, a sense 
of normalcy. And this is where the issue of remittance comes in 
and it is important for the United States to support the flow 
of remittance to the people of Somalia.
    Significant parts of Somalia suggest Somaliland and 
Puntland and others are also enjoying relative peace, 
stability, and self-governance.
    With regards to security, gains are less encouraging. 
Despite losing control of most major cities in Somalia, al-
Shabaab fighters remain a major threat to peace. The capital of 
Mogadishu, where I came from just 2 days ago, is under constant 
assault.
    A key challenge to the restoration of stability is the 
chronic weakness of security apparatuses. Command, control, and 
coordination is demonstrably weak due to the fragmentation of 
militias forming the security forces. Training, especially on 
protection of vulnerable civilians, remains poor and 
uncoordinated with many countries running various programs. The 
composition of forces does not reflect the regional and clan 
diversity of the Somali people, depriving the security forces 
of a much-needed legitimacy.
    The U.S. Government has provided significant support to 
Somalia's struggling security forces and the African Union 
peacekeeping missions for many years. This support from the 
United States and other development partners is literally all 
that is standing between the collapse of the federal government 
and its survival.
    The U.S. Government must, however, utilize its support 
innovatively. Tactical counterterrorism measures, surgical 
strikes, and the provision of ammunition were necessary for 
some time, but now there is a greater need for strategic 
partnership. Resources must be channeled toward rebuilding 
competent, professional, accountable, and broadly 
representative Somali security services that have both the 
qualitative and quantitative advantage over the enemy. AMISOM 
has done an excellent job of recovering regions from 
al-Shabaab's tyranny, but they cannot become a substitute for 
indigenous forces. Somali forces can ultimately defeat al-
Shabaab.
    Security is inextricably linked to political accommodation 
and reconciliation, which is partially why Somalia adopted a 
federal model of governance nearly 10 years ago. But a 
consensus on which type of federalism remains elusive. 
Successive governments have failed to translate the federal 
vision into viable member states. Frustrated with the lack of 
progress at the national level, communities across the country 
are taking matters into their own hands and are carving out 
fiefdoms along clan lines. The American dual track policy, 
which led to direct U.S. engagement with subnational entities, 
sent the wrong signal that the international community was 
promoting sectarian polities at the expense of a contiguous 
federal government.
    The process of federating the government faces three 
enormous challenges.
    First, the provisional constitution is deeply ambiguous and 
contradictory about the shape and the future of the Federal 
Government of Somalia and divisions of powers between the 
center and the peripheries. The meaning of federalism broadly 
misunderstood by the Somali people, many of whom are 
legitimately nervous about an overly centralized state. This is 
compounded by the absence of an effective judicial branch that 
can interpret constitutional provisions.
    Second, state institutions that are supposed to play a 
leading role in the national dialogue and the design of a 
suitable federal structure are yet to be established. The 
constitution calls for the formation of nearly a dozen 
independent commissions, half of which are instrumental to the 
federation process, such as the Boundaries and Federation 
Commission, the Inter-State Commission, and the Constitution 
Review and Implementation Commission. These delays are 
inexcusable.
    The federal government garnered an unprecedented support 
from the Somali people following its inauguration in September 
2012. It also won an unparalleled backing from the 
international community, including formal recognition by the 
U.S. Government for the first time in 20 years, easing of the 
U.N. arms embargo, monthly direct budgetary support from 
Turkey, and an expanded African Union peacekeeping mission. 
Many Somalis believe that the federal government has fallen 
significantly short of using that positive momentum to advance 
inclusive politics and dialogue with key domestic actors, 
including existing and emerging federal member states, 
traditional elders, and civil society.
    Third, neighboring countries are sometimes seen as 
undermining state-building efforts by encouraging and sometimes 
helping with the formation of more subnational entities to suit 
their own interests. While Ethiopia and Kenya face real threats 
from Somalia, as we have seen in the recent appalling attack in 
Nairobi, their unchecked interference risks destabilizing the 
country and a reversal of recent fragile gains.
    The provisional constitution of Somalia envisions elections 
to take place toward the end of 2016. While this is not 
impossible, it is highly improbable, given the magnitude of 
tasks ahead. It should remain an admirable goal for the current 
government, but we must not substitute state-building for 
process-building. Elections are not an end in themselves, but 
rather a means toward the more vital objective of forming a 
viable state. That includes finalizing the constitution, 
settling on a federal structure, and adopting political party 
laws.
    The challenges of facing the process of federation and 
political consolidation in Somalia are tremendous but not 
insurmountable.
    First, the provisional constitution is a deeply flawed 
document that contradicts itself and puts future member states 
and the federal government on a direct collision course. The 
Somali people and their government need urgent assistance in 
this regard.
    Priority must be given to the formation of the Review and 
Implementation Commission and Boundaries and Federation 
Commission. Once established, they will need considerable 
financial and human resources to engage in genuine national 
dialogue. There are a number of American institutions with 
relevant experience that can provide essential support in this 
area.
    Second, assistance to the Somali Government must be 
contingent upon measurable gains. It must be held accountable 
to the provisional constitution and its own national plan. If 
none of the commissions is established by early next year, the 
Somali people will lose faith in the government's commitment to 
offer something more than its predecessors.
    The United States and its allies should assist the Somali 
people to develop mechanisms to hold their government 
accountable. Somali civil society has always been, and will 
continue to be, a powerful force for progress. The role of 
civil society is currently worryingly absent. Civil society 
institutions must be strengthened and given the tools they need 
to effectively monitor the progress and integrity of the 
government.
    Third, as an important ally to both Kenya and Ethiopia, the 
United States has a moral obligation to exert pressure on the 
two countries to allow the Somali people and their government 
to engage in a national reconciliation. Interference galvanizes 
militant groups and further divides Somali communities.
    The United States should certainly continue to assist both 
countries in mitigating the security threats they face, but 
Kenya and Ethiopia must realize that only a democratic, strong, 
and vibrant Somali state on their borders is the greatest 
guarantor of security and prosperity in the region.
    Mr. Chairman, it is at times easy to dismiss Somalia as 
being irreparable and the archetypal failed state beyond hope. 
But as those of us who have given up their comfortable lives 
and families in the diaspora and returned home can attest to, 
progress is possible, and it is happening right now.
    Somalia has made a profound leap from where it was just 
3\1/2\ years ago when I first started going back home. At the 
time, 
al-Shabaab controlled 75 percent of Mogadishu and almost 60 
percent of the entire nation. Pirates were disrupting global 
shipping lanes. The very notion of government was actually 
contested across the country.
    But with the support of international partners like the 
United States, the European Union, the African Union, the 
United Kingdom, and Turkey, and others, Somalia is slowly 
emerging from the abyss. What it now needs is relentless 
efforts to rebuild inclusive state institutions that have 
legitimacy, capacity, and resources needed to finish the 
mammoth tasks ahead.
    I thank you on the subcommittee for this opportunity to 
present my views and will be happy to answer any questions.
    [The prepared statement of Mr. Aynte follows:]

                    Prepared Statement of Abdi Aynte

    Chairman Coons, Ranking Member Flake, subcommittee members, thank 
you for the opportunity to participate in this important panel at this 
critical juncture in Somalia's history.
    My name is Abdi Aynte, and I am the executive director of the 
Heritage Institute for Policy Studies. Although born in Mogadishu, I 
was reared in the United States. Our family fled to America to escape 
the violence that engulfed Somalia as it degenerated into civil war and 
state failure. I went to college in Minnesota, and graduate school at 
Johns Hopkins University in Washington, DC.
    I include this personal history because in the aftermath of the 
cruel attack on civilians at the Westgate Shopping Mall in Nairobi, 
some reports suggest one or more Somali-Americans, perhaps from 
Minneapolis, may have participated in the attack. As once a member of 
the Somali diaspora in America, I want to assure subcommittee members, 
and indeed all Americans, that the overwhelming majority of Somalis 
living in the United States love and respect this country and are 
indebted to it for the opportunities it has provided to them. They have 
nothing but contempt for the al-Shabaab terrorists and what they have 
done to Somalia and stand with all civilized nations in denouncing 
their actions.
    The Heritage Institute for Policy Studies was established in 
Mogadishu in January 2013. It is Somalia's first independent, 
nonprofit, nonpartisan think tank. It aims to inform and influence 
public policy and practice through empirically based research and 
analysis, direct engagement with senior policymakers and advocacy 
through the media, and to promote a culture of learning and research in 
the Somali region. Our most recent publications are briefing papers 
recommending how the international community can support the Federal 
Republic of Somalia through 
the ``New Deal'' development assistance and option for resolving the 
crisis between the central government of the Federal Republic and the 
people of Lower Jubba, Middle Jubba, and Gedo regions. More on the 
institute is on its Web site: www.heritageinstitute.org
    One year after the formation of the first nontransitional 
government in over 20 years, there are reasons to be cautiously 
optimistic about the future of Somalia. The Somali people are 
determined, more than ever, to reclaim their dignity and, above all, 
their place among the community of nations.
    They have also identified a common enemy to peace and stability. 
Citizens across the country are countering al-Shabaab's destruction and 
despair with construction and hope. Signs of economic vibrancy are re-
emerging. The Somali diaspora are returning in large numbers, bringing 
with them much-needed skills, business opportunities and, most 
importantly, a sense of normalcy. Significant parts of Somalia, such as 
Somaliland in the northwest and Puntland in the northeast, are enjoying 
relative peace, stability and self-governance.
    With regards to security, gains are less encouraging. Despite 
losing control of most major cities in Somalia, al-Shabaab fighters 
remain a major threat to peace and stability. The capital, Mogadishu, 
where I came from 2 days ago, is under constant assault. Grenade 
attacks, assassinations, suicide bombings, and JED attacks remain all 
too common. And as the recent Nairobi attack demonstrates, the Shabaab 
remains a lethal force as a militia in an asymmetrical warfare.
    A key challenge to the restoration of stability is the chronic 
weakness of the security apparatuses. Command, control, and 
coordination is demonstrably weak due to the fragmentation of militias 
forming the security forces. Training, especially on protection of 
vulnerable civilians, remains poor and uncoordinated with various 
countries running programs. The composition of forces does not reflect 
the regional and clan diversity of the Somali people, depriving the 
security forces of a much-needed legitimacy. This is largely due to the 
unintended consequences of liberating parts of the country from al-
Shabaab, and recruiting from these regions.
    The U.S. Government has provided much-needed support to Somalia's 
struggling security forces, and the African Union's peacekeeping 
mission for many years. This support, from the U.S. and other 
development partners, is literally all that stands between the collapse 
of the Federal Government and its survival.
    The U.S. Government must, however, utilize its support 
innovatively. Tactical counterterrorism measures, surgical strikes, and 
the provision of ammunition were necessary for sometime, but now there 
is a greater need for strategic partnership. Resources must now be 
channeled toward rebuilding competent, professional, accountable and 
broadly representative Somali security services with clear command and 
control. In order to defeat al-Shabaab, the Somali security forces need 
to be given a qualitative advantage over their enemy. At the moment, 
both sides are using mainly AK47s and RPGs. Armored personnel carriers, 
night vision goggles and air capability would be necessary.
    AMISOM has done an excellent job of recovering regions from the 
Shabaab's tyranny, but they cannot become a substitute for indigenous 
forces. Somali forces can ultimately defeat al-Shabaab.
    Security is inextricably linked to political accommodation and 
reconciliation, which is partially why Somalia adopted a federal model 
of governance nearly 10 years ago. But a consensus on which type of 
federalism remains elusive. Successive governments have failed to 
translate the federal vision into practical and viable member states. 
Frustrated with lack of progress at the national level, communities 
across the country have taken matters into their own hands, and carved 
out fiefdoms along clan lines. The American Dual Track Policy, which 
led to direct U.S. engagement with subnational entities, sent the wrong 
signal that the international community was promoting sectarian 
polities at the expense of a contiguous, federal government. Regional 
administrations practically run their affairs like independent states 
with virtually no input from the federal government.
    The process of federating the country faces three enormous 
challenges. First, the Provisional Constitutional is deeply ambiguous 
and contradictory about the shape of the future Federal Government of 
Somalia, and division of powers between the center and peripheries. The 
meaning of federalism is broadly misunderstood by the Somali people, 
many of whom are legitimately worried about an overly centralized 
state, much like the military regime of Siyad Barre. This is compounded 
by the absence of an effective judicial branch that can interpret 
constitutional provisions.
    The ambiguity of the Provisional Constitution has allowed political 
elites to interpret it to suit their own narrow interests. 
Consequently, existing and emerging member states are being formed with 
little or no consideration to economic, political, and social viability 
of the state, and with a deeply worrying lack of inclusivity and 
transparency. Rights of unarmed clans and minorities are routinely 
ignored, and processes to establish federal member states are done in 
the most secretive fashion.
    Second, state institutions intended to play a leading role in 
national dialogue and the design of a suitable and agreeable federal 
structure are yet to be established. The Provisional Constitution calls 
for the formation of nearly a dozen independent commissions, half of 
which are instrumental to the federation process, such as the 
Boundaries and Federation Commission, the Inter-state Commission, and 
the Constitution Review and Implementation Commission. The Federal 
Government is far behind schedule on the establishment of these 
commissions.
    These delays are inexcusable. The Federal Government garnered an 
unprecedented support from the Somali people following its inauguration 
in September 2012. It also won an unparalleled backing from the 
international community, including formal recognition by the U.S. 
Government for the first time in 20 years, easing of the U.N. arms 
embargo, monthly direct budgetary support from Turkey, and an expanded 
African Union Peacekeeping Mission.
    Many Somalis believe that the Federal Government has fallen short 
of using that positive momentum to advance inclusive politics and 
dialogue with key domestic actors, including existing and emerging 
federal member states, traditional elders, and civil society.
    Third, neighboring countries are undermining national 
reconciliation efforts by encouraging and sometimes helping with the 
formation of more subnational entities to suit their own domestic 
interests. Jubbaland was the most recent example. It was no secret that 
Kenya has organized, financed, and lobbied the international community 
to recognize the establishment of a ``buffer zone'' in its border with 
Somalia. While Ethiopia and Kenya face real threats from Somalia--as 
we've witnessed in the recent appalling attack in Nairobi--their 
unchecked interference risks further destabilizing of the country and a 
reversal of recent fragile gains.
    The Provisional Constitution of Somalia envisions elections to take 
place toward the end of 2016. While this is not impossible, it's highly 
improbable given the magnitude of the tasks ahead. It should remain an 
admirable goal for the current government, but we must not substitute 
state-building for process-building. Elections are not an end in 
themselves, but rather a means toward the significantly more important 
objective of viable state formation, including finalizing the 
constitution, settling on a federal structure and adopting political 
party laws. In the absence of these steps, preparing for elections is a 
futile exercise.
    The challenges facing the processes of federation and political 
consolidation in Somalia are tremendous, but not insurmountable.
    First, the Provisional Constitution is a deeply flawed document 
that contradicts itself and puts future member states and the federal 
government on a direct collision course. The Somali people and their 
government need urgent assistance in this regard.
    Priority must be given to the formation of the Review and 
Implementation Commission and Boundaries and Federation Commission. 
Once established, they will need considerable financial and human 
resources to engage in genuine national dialogue. There are a number of 
American institutions with relevant experience that can provide 
essential support in this area.
    Second, assistance to the Somali Government must be contingent upon 
measurable gains. It must be held accountable to the Provisional 
Constitution and its own national plan. The culture of willfully 
missing constitutional deadlines must not be tolerated. If none of 
commissions is established by early next year, the Somali people will 
lose faith in the government's commitment to offer something more than 
its predecessors.
    Somalis are rightfully worried that important transitional tasks 
will remain unfinished in 3 years when the government's mandate comes 
to an end. Without strong support from the U.S. and other development 
partners there is a grave risk of the country slipping back into chaos. 
The United States and its allies must seize this opportunity to 
consolidate recent gains.
    The U.S. and its allies should assist the Somali people to develop 
mechanisms to hold their government to account. Somali civil society 
has always been, and will continue to be a powerful force for progress. 
The role of the civil society is currently worryingly absent. Civil 
society institutions must be strengthened and given the tools they need 
to effectively monitor the progress and integrity of the government. 
Properly amplified internal voices can induce change from within.
    Third, as an important ally to both Ethiopia and Kenya, the United 
States has a moral obligation to exert pressure on the two countries to 
allow the Somali people and their government to engage in a national 
reconciliation. Interference galvanizes militant groups and further 
divides Somali communities.
    The U.S. should certainly continue to assist both countries in 
mitigating the security threats they face. But Kenya and Ethiopia must 
realize that a democratic, strong, and vibrant Somali state on their 
borders is the greatest guarantor of security and prosperity in the 
region.
    It is, at times, easy to dismiss Somalia as being irreparable, the 
archetypal failed state beyond hope. But as those of us who have given 
up their comfortable lives and families in the diaspora to return home 
can attest to, progress is possible. And it is happening across the 
country.
    Somalia has made a profound leap from where it was just 3\1/2\ 
years ago, when I first started returning home. At the time, al-Shabaab 
controlled 75 percent of Mogadishu and almost 60 percent of the entire 
nation. Pirates were disrupting global shipping lanes. The very notion 
of government was contested across the country.
    With the support of international partners like the United States, 
the European Union, the African Union, the United Kingdom, Turkey, and 
others, Somalia is slowly emerging from the abyss. What it needs now is 
relentless efforts to rebuild inclusive state institutions that have 
the legitimacy, capacity, and resources needed to finish the mammoth 
tasks ahead.

    Senator Coons. Thank you very much, Mr. Aynte.
    Dr. Hogendoorn.

 STATEMENT OF DR. E.J. HOGENDOORN, DEPUTY DIRECTOR FOR AFRICA, 
           INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Dr. Hogendoorn. Thank you, Senator Coons and Senator Flake, 
for this opportunity.
    Crisis Group has been working on Somalia since 2002 from 
our office in Nairobi, and we frequently travel to the country 
for research purposes.
    Conditions in Somalia have improved. AMISOM, now including 
Kenya, has with the help of Ethiopia, the Somali National Army, 
the Sufi group, Ahlu Sunna wal Jamaa, and various allied clan 
militias, dealt al-Shabaab a serious strategic setback. Somalia 

also has a new albeit provisional government that is 
qualitatively better than previous administrations. The 
international community quickly recognized this government, and 
in September it pledged $2.5 billion in support.
    However, the federal government only has de facto control 
over Mogadishu and parts of the south. Al-Shabaab is down but 
not out. It controls huge swaths of south and central Somalia 
and it still is able to hit high-profile targets.
    The government also needs donors to pay security forces and 
to rebuild. Security in Mogadishu and elsewhere remains 
dependent on AMISOM and will likely for some time to come.
    Neither AMISOM nor the government can impose a peace. 
Stability is only possible through a nationwide process of 
negotiation, power-sharing, and improved governance.
    Arguably, Somalia's most intractable issue is the question 
of federalism. Simply put, there remains serious disagreement 
between those who would like to see Somalia become a strong 
unitary state, one that can stand up to its neighbors, and 
those that fear a centralized government would be dominated by 
a single clan or group of clans, as it was during the Siad 
Barre era.
    Agreement on the powers of the federal government needs to 
be thrashed out quickly, otherwise Somalia risks embarking on a 
disruptive, piecemeal approach in the establishment of local 
administrations and federal states. The federal government 
quickly ran into trouble on the issue of federalism in Jubaland 
in southern Somalia, which was exacerbated by ambiguity in the 
constitution about who leads the process of creating these 
states.
    Neighboring countries also have significant security 
interests in Somalia, and all have sizeable forces in the 
country. Beyond the Horn, Muslim Somalia is very much linked to 
the Middle East, and Egypt, Qatar, and Turkey are very active 
in the country.
    Ethiopia is Somalia's historic rival. Addis Ababa, 
promoting its own system of ethnic federalism, is a strong 
proponent of federalism and a seemingly logical, bottom-up 
approach of state-building in Somalia. However, many Somalis 
see this as a ploy to keep their country weak and divided and 
are, thus, wary of international pressure to devolve power.
    Kenya forcefully intervened in 2011 to create its own 
buffer state and facilitate the return of nearly half a million 
Somali refugees. It subsequently joined AMISOM but often 
follows its own interests. In Jubaland, Kenya has thrown its 
support behind Ahmed Madobe and not the federal government. 
Publicly Kenya is looking for an exit, but Somalis view this 
claim with great skepticism. According to the U.N. monitoring 
group, Kenyan politicians and officers are earning money from 
the trade, including banned charcoal passing through Kismayo. 
And more important, most believe Kenya wants to control 
southern Somalia because it has large oil and natural gas 
deposits.
    Al-Shabaab is aggressively trying to turn the local 
population against what it calls Christian Kenyan occupiers, 
and the Westgate Mall attack was an attempt to trigger a 
crackdown to that end.
    Beyond the regional states, a number of Muslim countries 
have taken an active interest in Somalia. This greater regional 
interest allows Somalia to play different states off against 
each other, particularly Muslim states against Ethiopia.
    International cooperation is also complicated by a host of 
international organizations, including the United Nations, the 
African Union, and EGAD, the regional organization in East 
Africa, with no clear division of responsibilities or a lead 
actor.
    The greatest problem was, and arguably remains, the 
overlapping mandate of the AU and the United Nations. The AU 
has the military peace enforcement responsibility, but by 
virtue of having been in Mogadishu for the last 4 years in 
fielding a force of over 17,000 troops, it is a political 
actor. While the U.N. has a political mandate, it is very much 
involved in security policy, security sector reform, and the 
vexing issue of federalism. Both missions are also headed by 
special representatives who reportedly get on well, but they 
and their staff have no clear instructions on how to share 
responsibilities.
    The Westgate Mall attack. Much has been written about the 
latest terrorist attack. It is, however, important to note that 
this has long been expected and was certainly not the first, 
only the most destructive. It is important that the Kenyan 
Government prevent a backlash against its Somali and Muslim 
population, lest it does exactly what al-Shabaab was seeking.
    What should the United States do in the opinion of Crisis 
Group?
    First of all, it should support and prioritize nationwide 
negotiations on the type of federalism this federal government 
will implement and insist that the formation of new states 
adhere to a rule-based process. It should continue to support 
local and regional administrations' capacity-building, but this 
must be linked to reconciliation and measures to ensure 
minority clans are adequately represented in those governments.
    Currently it is very difficult for aid agencies to provide 
development assistance in insecure areas. Yet, it is in these 
areas where assistance can be of the greatest benefit. Congress 
should consider supporting a smaller, high-risk but high-reward 
fund managed by the Office for Transition Initiatives for 
symbolic projects in Somalia's periphery.
    Congress should also note that the 2016 elections are not 
far away. They are already behind schedule, and election 
assistance should be quickly funded by donors.
    More attention should also be given to countering 
radicalization in Somalia and the horn. The United States 
should be giving quiet assistance to such programs.
    The U.S. Government should also place much greater emphasis 
on reconciliation, both with armed factions and on a national 
level between clans. It should provide support for local peace 
and reconciliation conferences that can feed into larger 
regional conferences.
    It should also provide the new U.N. mission, UNSOM, with 
all the capacity necessary to coordinate assistance 
effectively, and it should insist that the federal government 
does so effectively as well.
    The State Department and DOD should also start working 
with AMISOM to clearly articulate a multiyear exit strategy for 

its intervention in Somalia, and this should be linked with 
incremental support to the creation of a professional, mixed-
clan national army.
    Last, the United States should convene an international 
working group to help create a transparent mechanism to monitor 
revenue collection in Somalia's major ports and airports, 
including an oversight board with a mixed international and 
Somali composition and supported by experts, as was done in 
Liberia, to ensure that port revenue is used to develop all 
regions in Somalia equitably.
    In conclusion, Somalia remains an extremely weak and 
fragile state. Its security is dependent on external sources. 
Its sovereignty is threatened, and its stability is far from 
certain. Yet, it is at an inflection point where the hope of 
achieving sustainable progress is becoming real if, and only 
if, the international community works together toward that goal 
and Somalis honestly confront the governance challenges facing 
their country.
    I thank you and look forward to your questions.
    [The prepared statement of Dr. Hogendoorn follows:]

               Prepared Statement of Dr. E.J. Hogendoorn

    I would like to take this opportunity to thank the Chairman Coons 
and the other members of the Senate Foreign Relations Subcommittee on 
African Affairs for inviting Crisis Group to testify today on Security 
and Governance in Somalia. Crisis Group has been working on Somalia 
since 2002, and has produced some 18 in-depth reports and briefings on 
the conflict there and continues to follow events there closely from 
our office in Nairobi, with frequent visits to the country's various 
regions.
    Crisis Group is an independent, nonpartisan, nongovernmental 
organization that provides field-based analysis, policy advice, and 
recommendations to governments, the United Nations, the European Union, 
and other multilateral organizations on the prevention and resolution 
of deadly conflict. Crisis Group was founded in 1995 by distinguished 
diplomats, statesmen, and opinion leaders including Career Ambassador, 
Mort Abramowitz; Nobel Prize winner and former Finnish President, 
Martti Ahtisaari; late Congressman, Stephen Solarz; and former U.N. and 
British diplomat, Mark Malloch-Brown.
    Ambassador Thomas Pickering is our current chairman. Louise Arbour, 
former chief prosecutor at the International Criminal Tribunals for 
Rwanda and for the former Yugoslavia, and past U.N. High Commissioner 
for Human Rights, is our current president. In 2011, Crisis Group was 
awarded the Eisenhower Medal for Leadership and Service.
    Crisis Group publishes some 80 reports and briefing papers 
annually, as well as a monthly CrisisWatch bulletin. Our staff is 
located on the ground in 10 regional offices, and 16 other locations, 
covering between them over 60 countries and focused on conflict 
prevention and post-conflict peace-building. We maintain advocacy and 
research offices in Brussels (our global headquarters), Washington, and 
New York. We have liaison offices in London, Beijing, and Moscow.
                        the situation in somalia
    Conditions have improved in the last several years. The African 
Union Mission for Somalis (AMISOM), now including Kenya, has with the 
help of Ethiopia, the Somali National Army (SNA), the Sufi Ahlu Sunna 
wal Jamaa, and various clan militia allies dealt the armed Islamist 
fundamentalist group Harakat al-Shabaab 
al-Mujahedeen (Mujahidin Youth Movement), better known as al-Shabaab a 
serious strategic setback by formally ejecting it from Mogadishu, 
Afgooye, Baidoa, Merca, and Kismayo (it still has an underground 
presence in these cities). This represents a huge psychological blow 
and has deprived the group of major revenue sources. 
Al-Shabaab has also been weakened by internal conflict, and several 
large and important factions have left the organization. Mogadishu, 
although it continues to be plagued by assassinations and occasionally 
larger asymmetrical attacks, is more secure; resulting in thousands of 
residents returning, and a torrent of business investment in the city's 
reconstruction.
    Somalia also has a new, albeit still interim government that is 
qualitatively better than previous administrations. Neither President 
Hassan Sheikh nor Prime Minister Abdi Shirdoon played major roles in 
civil war. They appointed a relatively lean and technocratic Cabinet. 
In addition, the new 225-member Parliament is more representative than 
previous iterations.
    The Somali Federal Government (SFG) also developed a ``Six Pillar'' 
strategy that focuses on stability, economic recovery, peace-building, 
international relations, and national unity. Optimism led the 
international community, including the U.S., to quickly recognize the 
new government and in September it pledged some $2.5 billion in ``New 
Deal'' support that, conditioned on greater transparency and governance 
reforms, will go through the SFG. If allocated efficiently, this money 
could be a huge boon to the country and its people.
                            a reality check
    Despite all its good will, the SFG is still a provisional 
government, with de facto control only over Mogadishu and parts of the 
South, and dependent on foreign troops to keep its enemies at bay. Al-
Shabaab is down but not out. It controls, or at least is able to 
operate at will in, huge swaths of south and central Somalia, and still 
able to hit high-profile targets in Mogadishu's heavily fortified 
areas, including the national courts, the U.N. compound, the Turkish 
Embassy, and popular gathering places such as the Village restaurant. 
Somalia also remains an extremely poor country, the SFG generates very 
few of its own resources, and is largely dependent on the international 
community to pay its security forces and begin the difficult and very 
expensive task of rebuilding after nearly 20 years of state collapse. A 
lot of the taxes and fees on trade transiting through ports and 
airports (the major sources of official revenue) is still ``captured'' 
by corrupt officials and local clans and businessmen. Furthermore, the 
international community has pumped hundreds of millions of dollars into 
security sector reform since 2000, with little tangible positive impact 
and arguably exacerbated instability. Security in Mogadishu, and 
elsewhere, remains dependent on AMISOM, and will likely for some time 
to come.
    Yet AMISOM alone, with some 17,000 troops cannot pacify an area the 
size of New Mexico. The government also cannot stabilize Somalia 
through military measures alone--it cannot impose a peace--it must 
recognize its limitations and accept that stability is only possible 
through a nationwide process of negotiation, power-sharing with other 
political forces and improved governance.
    Al-Shabaab also remains a potent threat, as demonstrated by 
Westgate Mall operation in Nairobi, and high profile attacks in 
Mogadishu and elsewhere. Ahmed Godane appears to have taken firm 
control of the organization and seems intent on regionalizing his 
operations. Al-Shabaab is a serious regional threat and has links to 
other extremist groups in the Horn and the continent. ``Hard'' 
counterterrorist measures can only be so good, it will be extremely 
difficult for regional states, the SFG, and AMISOM to protect soft 
targets from terrorist attacks.
                      the challenge of federalism
    Arguably the most intractable issue is the question of federalism. 
Despite 5 years of work, the committee drafting Somalia's new 
constitution was unable to reconcile different positions on the 
devolution of power and left many provisions on federalism vague or 
unaddressed in the provisional constitution that forms the basic law of 
the SFG. Put simplistically, serious disagreements remain between those 
who would like to see Somalia become a strong unitary state--one that 
can stand up to neighbors, such as Ethiopia, that have long meddled in 
its affairs--and those that fear a centralized government would be 
dominated by a single clan, or group of clans--as it was during the 
Siad Barre era--and would then deny them their fair share of resources. 
This divide also tends to follow clan lines with many Hawiye clans, who 
dominate central and south Somalia and particularly greater Mogadishu, 
supporting a unitary state, while many Darod clans, who dominate 
Puntland and Jubaland, are strong proponents of federalism.
    Agreement on the powers of the federal government need to be 
thrashed out quickly, otherwise Somalia risks embarking on a ``piece-
meal'' approach in the establishment of local administrations and 
federal states. The SFG quickly ran into trouble on the issue of 
federalism, exacerbated by ambiguity in the constitution about who 
leads the process of creating states. Instead of building its own 
legitimacy by focusing on the service provision in Mogadishu and other 
liberated areas, or working with de-facto authorities, the SFG 
forcefully inserted itself into the Jubaland process, in far away 
Kismayo, southern Somalia, by appointing its own district-level 
officials (as was allowed by the constitution). The local authorities 
ignored the SFG (and the constitution), convened a conference, and 
ultimately elected a former al-Shabaab commander, but now Ethiopian and 
Kenyan ally, Ahmed Mohamed Islam ``Madobe'' in April. Pushed by 
proponents of a strong central state, the SFG continued ratcheting up 
the pressure and at one point al-Shabaab militias allowed pro-SFG 
forces to move troops and ``technicals'' through their territory on the 
way to Kismayo. Barre Hiraale, a SFG ally (and a former proxy of 
Ethiopia) even publicly announced that his forces were colocated with 
al-Shabaab and planning joint operations against Madobe. Several 
violent clashes followed, and only under concerted pressure from 
Ethiopia, Kenya, and the international community were the two sides 
able to reach a tentative agreement, in Addis Ababa, on the 
establishment of the Jubaland Interim Administration: with Madobe the 
President for no more than 2 years and a promise that the SFG would 
take control of Kismayo port and airport, provided the revenues would 
remain in the region. The agreement was guaranteed by Ethiopia as chair 
of the Intergovernment Authority on Development (IGAD), the regional 
security organization. Somalia's neighbors thus facilitated the peace, 
but at the same time also are laying the ground for further conflict.
    This week Madobe, beholden to his Ogaden clan, refused to meet the 
SFG per the Addis Ababa Agreement's terms, and thus seemingly rejected 
it. Jubaland is very much an Ogaden-dominated state, and if the interim 
administration is not careful it will drive alienate minority clans 
from the region to support al-Shabaab or other armed opposition groups. 
Kenya in particular may then be pulled into supporting an increasingly 
unpopular regional government, which could be further exploited by al-
Shabaab to characterize its intervention as an ``occupation'' (much 
like it did the Ethiopian intervention from 2006-2009) and Madobe as a 
puppet. It must be the SFG's role to represent the interests of 
minority clans, and not allow dominant clans to dictate particular 
state's political dispensations.
                           regional politics
    The region has significant security interests in Somalia, and 
immediate neighbors Djibouti, Ethiopia, Kenya, and Uganda all have 
sizable forces in the country. Beyond the Horn, Muslim Somali is very 
much linked into the Middle East, and Egypt, Qatar, and Turkey are very 
active in the country.
    Despite its size, Djibouti plays a significant role, in large part 
because much of its population is Somali and many Somali businessmen 
either do business in, or have strong ties with businessmen from the 
country. Djibouti has also hosted several multiyear Somali peace 
processes and its elite have strong ties to Somali leaders. Its forces 
are now based in relatively quiet central Somalia.
    Ethiopia has been Somalia's historic regional rival: disputes over 
control of the Ogaden region, which Somali nationalists consider to be 
part of ``Greater Somalia'' continue, and led to a brief war (1977-78) 
and much longer proxy conflict. Calls for the annexation of the Ogaden, 
as well as other parts of greater Somalia, remain popular with Somali 
nationalists, and pandering to this sentiment by the Islamic Court 
Union (ICU) was part of the reason Ethiopia intervened in Somalia in 
2006. Addis Ababa quickly expelled the ICU from major cities, and then 
remained to prop up the then Transitional Federal Government (TFG). 
This led to the rise of al-Shabaab, which presented itself as the most 
effective force fighting Ethiopian ``occupation.'' It was during this 
period that the group received its most significant diaspora support--
not because they shared its ideology, but because they saw al-Shabaab 
as part of a liberation struggle. The intervention cost Ethiopia 
dearly, and 3 years later, Addis quietly relented to the selection of 
Sheikh Sharif Sheikh Ahmed, the former chairman of the ICU as the new 
TFG President. Ethiopia quickly withdrew, with AMISOM only slowly 
replacing it as the force protecting the embattled government. Since 
then Ethiopia has focused largely on supporting groups that can 
effectively act as a buffer along its borders, many of whom are 
resistant to the new central government. This includes Somaliland and 
Puntland State.
    Ethiopia, promoting its own system of ``ethnic federalism'' is a 
strong proponent of federalism in Somalia, and has long supported a 
seemingly logical ``bottom up'' approach of state-building. Many 
Somalis, however, see this as a ploy to keep their country weak and 
divided, and this very much plays into the hostility of many toward 
international pressure for the SFG to truly devolve power. While 
overstated, Ethiopia is wary of a strong Somali central state, 
particularly if it is close to countries perceived as hostile by Addis 
Ababa.
    Kenya is a relatively new entrant in Somalia. Nairobi forcefully 
intervened in 2011 to create its own buffer state and facilitate the 
return of more than 0.5 million Somali refugees currently living in the 
country. Kenya subsequently joined AMISOM, but often follows its own 
interests. In Jubaland, Kenya has thrown its support behind Ahmed 
Madobe, its most effective proxy force leader. Publicly Kenya is 
looking for an exit, but Somalis view this claim with great scepticism. 
According to the U.N. Monitoring Group, Kenyan-Somali politicians and 
Kenyan military officers are allegedly earning large amounts of money 
from trade, including illegal charcoal, passing through Kismayo, and 
more importantly most believe Kenya wants to control southern Somalia 
because it has large oil and natural gas deposits. Al-Shabaab is 
aggressively trying to turn the local population against the Kenyan 
``Christian'' forces occupiers, and the Westgate Mall attack was an 
attempt to trigger a crackdown to that end.
    Uganda is most removed, but remains the dominant actor in Mogadishu 
(despite the presence of a large Burundian continent) because of the 
size of its contingent and the forceful personality of President 
Museveni. It contingent is also accused by Somalis of profiteering from 
the war. Previously very active, Museveni lately has been distracted by 
political turmoil in Kampala and has taken a less force role, ceding 
some influence to Ethiopia and Kenya.
    Beyond the regional states, a number of Muslim countries have taken 
an active interest in Somalia. Turkey is perhaps the most prominent 
country, and to its credit played a major role in responding to the 
latest famine in 2011, and then subsequently has arrogated a 
substantial role for itself, and its companies, in the reconstruction 
efforts. Qatar has also played a major role, particularly in its 
support for President Hassan Sheikh Mohamud and his supporters from 
Damul Jadiid (New Blood), a faction of Al-Islaah, the Somali wing of 
the Muslim Brotherhood. The emergence of the Muslim Brotherhood has 
also increased the interest of Egypt, which before Tharir Square had 
been in major competition with Ethiopia over influence in Somalia. The 
greater regional interest allows the SFG to play different states off 
each other, particularly Muslim states against Ethiopia. The influence 
of Damul Jadiid has led Somalia to re-orient somewhat away from IGAD 
and AU toward Middle East. This has complicated Somalia's relationship 
with Ethiopia and Kenya, and to a degree with the U.N.
             the ``international community'': herding cats
    Not only is international involvement complicated by numerous 
bilateral countries with individual agendas, but there are also a 
number of international organizations, including the U.N., AU, and IGAD 
(not to forget, occasionally, the League of Arab States, the World 
Bank, and NATO) active in Somalia with no clear division of 
responsibilities or lead actor. (This sometimes was a problem within 
the U.N. and AMISOM as well, where agencies did not cooperate or 
contingents did not follow the chain of command). They are also joined 
by a number of special envoys with unclear roles vis a vis the 
international organizations, the missions in Somalia or ambassadors 
accredited to Mogadishu.
    The greatest problem was, and arguably remains, the overlapping 
mandates of the AU and the U.N. The AU has the military peace 
enforcement responsibility, but by virtue of having been in Mogadishu 
for the last 4 years and fielding a force of over 17,000 troops is a 
major political actor in Somalia, while the U.N. has a political 
mandate, but by virtue of security being a huge part of reestablishing 
stability in the country (as well as supply a great deal of support to 
AMISOM, through UNSOA, and the government) was very much involved in 
security policy and security sector reform. Both missions are also 
headed by special representatives with no clear instructions on how to 
share responsibilities. This was a particular problem for AMISOM and 
UNPOS, particularly because UNPOS was based in Kenya and its senior 
staff rarely spent much time in Mogadishu.
    It is too early to tell if new United Nations Assistance Mission 
for Somalia (UNSOM), established on 3 June 2012 can succeed where so 
many others have failed. Its mandate includes the provision of policy 
advice to the SFG and AMISOM on peace-building and state-building in 
the areas of: governance, security sector reform and rule of law 
(including the disengagement of combatants), development of a federal 
system (including preparations for elections in 2016), and coordination 
of international donor support. It is also tasked to help build the 
SFG's capacity to promote respect for human rights and women's 
empowerment, promote child protection, prevent conflict-related sexual 
and gender-based violence, and strengthen justice institutions. To 
strengthen intra-U.N. coordination, a major problem since UNPOS was 
created in 1995, a post of the Deputy Special Representative of the 
Secretary-General/Resident and Humanitarian Coordinator will be 
established on 
1 January 2014 and ``structurally integrated into UNSOM.''
    Importantly, UNSOM is based in Mogadishu and will be deployed 
across Somalia, as requested by the Federal Government and as 
conditions permitted--so far it is only present in the capital, Garowe, 
Baidoa and Kismayo (it has not received permission to establish an 
office in Hargeisa). The Security Council emphasized the need for 
coordination, and UNSOM and AMISOM will work ``on parameters for 
practical partnership on the ground.'' To date UNSOM is just starting 
to deploy with approximately 50 staff in Mogadishu, whose mobility is 
severely subscribed because of insecurity (the U.N. compound was 
attacked on 19 June and 1 permanent staff, 3 contractors and 4 guards 
were killed, along with at least 6 Somali bystanders). It will not be 
up to full strength until early 2014, depending on the security 
situation.
    The major role for UNSOM will be coordinating security sector 
reform and international support. As was noted by the U.N. technical 
assessment team, ``A common and closely coordinated strategy for 
international security support, which sets out clearly the respective 
responsibilities for the Africa Union, the United Nations, other 
allies, and Somali forces, with clear timelines and appropriate 
resources is a priority.'' Security training is now being conducted by 
Somali forces, the European Union Training Mission (EUTM), Turkey, 
Ethiopia, and Bancroft Global Development, a private company. This is 
ostensibly coordinated through a UNSOM facilitated and Somali-led 
steering group. Much work remains to be done. According to the last 
U.N. report, Somali forces continue to face significant logistical 
challenges and ``indiscipline continued to present a challenge, and 
there were reports of clashes within Somali security forces in Baidoa 
and Buurhakaba, and an increasing number of desertions in Bay and 
Bakool. Furthermore, police continue to face serious capacity gaps and 
``international support, including stipends and training continues, but 
lack of coherence undermines its effectiveness.''
    Donor coordination will be equally challenging. Encouragingly the 
SFG has developed the Somali Compact that strives to provide an 
overarching strategic framework for coordinating political, security 
and development efforts over the next 3 years. It will remain to be 
seen if the donor community, in its New Deal pledges, will adhere to 
that framework, especially as counterterrorism priorities again rise to 
the fore with the recent Westgate Mall attack.
                          the westgate attack
    Much has already been written about the latest al-Shabaab attack in 
Nairobi. It is however important to note that it had long been 
expected, and it was certainly not the first, only the most 
destructive, with consequently the most media attention. Since Kenyan 
troops went into Somalia, militia groups have launched some 50 attacks 
into northeastern Kenya, and a number of grenade attacks in Mombasa and 
Nairobi. Almost all seem to have been aimed at creating a backlash 
against Kenyan Somalis and Muslims, deepening sectarian divisions and 
driving those populations to provide more support to radical Islamist 
groups. A related goal was to put pressure on Kenya to withdraw its 
forces from southern Somalia, either because it was unwilling to pay 
the price at home, or because the local population was turning against 
AMISOM. It is therefore important that the Kenyan Government prevent a 
backlash against its Somali and Muslim population, lest it does exactly 
what 
al-Shabaab was seeking.
                          what the u.s. can do
  <bullet> Support and prioritize nationwide negotiations on the type 
        federalism the SFG will implement. Insist that the formation of 
        new states adheres to a rule-based process.
  <bullet> Continue to support local and regional administrations' 
        capacity-building, particularly through the Local Stability 
        Fund proposed by the U.K. at the London Conference in 2012, but 
        this must be linked to reconciliation and measures to ensure 
        minority clans are adequately represented in those governments.
  <bullet> It is very difficult for aid agencies to provide development 
        assistance in insecure areas of Somalia, yet it is in these 
        areas where assistance can have the greatest marginal benefit, 
        particularly for nascent local administrations. Congress should 
        consider supporting a ``venture development fund'' managed by 
        OTI to provide small and quick high risk, but high reward 
        grants for symbolic projects, such as medical clinics and 
        boreholes, focused on local governments in Somalia's periphery. 
        Such projects would provide much-needed services and much-
        needed legitimacy to local authorities and a tangible reward 
        for withdrawing support from al-Shabaab. This is what many 
        Islamic NGOs are doing in Somalia.
  <bullet> The 2016 elections are not so far away. Crucial 
        constitutional commissions, such as Boundaries Commission and 
        Independent Constitutional Review Commission, are not yet 
        established. If there are many setbacks, it is quite likely the 
        polls will have to be delayed, which will be extremely 
        destabilizing. (The SFG's vision 2016, is already signaling the 
        need for contingency plans if one-person-one-vote elections are 
        not possible at that time.) Election assistance should already 
        be funded by donors. Thought should also be given to piloting 
        smaller municipal elections.
  <bullet> More attention should be given to countering radicalization 
        in Somalia and the Horn. The U.S. should give quiet assistance 
        to programs that articulate the argument that radicalisation is 
        largely driven by a unique set of beliefs alien to Somalis and 
        an extremist and literal interpretation of holy texts.
  <bullet> Help develop effective, long-term counter- and de-
        radicalisation strategies for all the countries in the Horn of 
        Africa. As Crisis Group noted in ``Kenyan Somali Islamist 
        Radicalisation'' (25 January 2012), a link exists between 
        radicalization and terrorism, but counterterrorism tactics 
        aimed only at stopping al-Shabaab and other militant groups 
        should not become the only official response. Counter-
        radicalization--reducing the appeal of radicalism--and de-
        radicalization--persuading people who are already in radical 
        organisations to leave them--are long-term processes that 
        require tact and patience.
  <bullet> Place much greater emphasis on reconciliation, both with 
        armed factions and on a national level between clans. Provide 
        support to local peace and reconciliation conferences that can 
        feed into larger regional conferences only after most local 
        disputes have been resolved. These conferences should be 
        completed before elections.
  <bullet> Provide UNSOM with all the capacity necessary to 
        coordination assistance effectively. Insist that the SFG does 
        so effectively as well.
  <bullet> Have the State Department and DOD work with AMISOM to 
        clearly articulate a multiyear exit strategy for its 
        intervention in Somalia. This should be linked with incremental 
        support to the creation of a professional, mixed-clan national 
        army.
  <bullet> Develop a mechanism with AMISOM to coordinate the activities 
        of allied local administration security forces. This should run 
        in parallel to negotiations on the roles and responsibilities 
        of the regional, state, and federal governments.
  <bullet> Because no one knows how much revenue is generate by 
        individual ports and airports, much conflict in Somalia is over 
        assumed revenue flows and the division thereof. As Crisis Group 
        suggested in ``The Kenyan Military Intervention in Somalia'' 
        (15 February 2012), the international community should convene 
        an international working group to help create a mechanism to 
        transparently monitor revenue collection Somalia's major ports 
        and airports, particularly in Bossaso, Mogadishu, Merca, and 
        Kismayo, including an oversight board with mixed international 
        and Somali composition and supported by experts (forensic 
        accountants) and international customs officers, much as was 
        done in Liberia; and ensure that the revenue is used to develop 
        all regions in Somalia.
                               conclusion
    The SFG remains an extremely weak and fragile state, its security 
dependent on external sources, its sovereignty threatened and its 
stability far from certain. Yet it is at an inflection point where the 
hope of achieving sustainable progress is becoming real if, and only 
if, the international community work together to that goal and Somalis 
honestly confront the governance challenges facing their country.

    Senator Coons. Thank you, Dr. Hogendoorn.
    Let me start with your last of many recommendations first 
and work back to the previous.
    First, I will ask of all three of you a question about sort 
of the security situation and the financing of al-Shabaab and 
what are the strategic challenges we face and then, second, 
about federalism. All three of you had some interesting 
comments about federalism.
    On the first question, my sense is that al-Shabaab has been 
principally financed through the charcoal trade when they 
controlled Kismayo and parts of the coastline and through the 
extraction of taxes from those communities they control. And 
the U.N. monitoring group I think recently described how the 
regional charcoal trade helps finance al-Shabaab.
    What should we be doing here forward to ensure that al-
Shabaab loses the financial support to continue operations, and 
what do you see as the most important next steps to strengthen 
AMISOM to actually carry out its mission of stabilizing the 
security of the country to make possible a transition to a more 
broadly, representative, inclusive and professionalized Somali 
national forces? I would be interested in all three of your 
answers to that set of questions. Dr. Hogendoorn, Mr. Aynte, 
Dr. Le Sage, in order please.
    Dr. Hogendoorn. As I mentioned before, the charcoal trade 
is actually banned by the U.N. Security Council, and I think 
that the United States should do more to force its partners to, 
in fact, adhere to those prohibitions.
    I think that the real challenge with AMISOM is that it has 
essentially reached a point where it can no longer push farther 
out, and either the international community needs to provide 
more resources to AMISOM to increase its troop capacity and 
improve its ability to reach out or more needs to be done on 
the political side to try to stabilize Somalia.
    Senator Coons. Mr. Aynte, thoughts on how we reduce 
financing to al-Shabaab by whatever means.
    Mr. Aynte. I think the first thing is we need to know 
exactly where the financing of al-Shabaab is coming from. And 
the conventional belief was that it was mostly coming from the 
cities that it controlled and the resources it controlled like 
the Bakaara market in Mogadishu and the port. Now that has 
gone, I think many of us are wondering where the financing 
still seems to be coming through. Part of the answer lies with 
the fact that they still control a considerable amount of land 
in south-central Somalia. So the immediate answer to that is an 
attempt to try to recapture that part of the land.
    I do, though, in relation to this, want to emphasize the 
importance of really creating an indigenous security force. I 
think that is ultimately where the answer lies. It is 
considerably cheaper than the African Union peacekeeping 
mission, which is necessary and needed and has done a 
remarkable job up until this moment. But I think a serious 
attempt need to be made both by the Somali Government but by 
the international partners to try and rebuild a professional, 
inclusive, and competent security sector.
    Senator Coons. What timeline do you think it is possible to 
rebuild a representative, credible, vetted Somali national 
security force?
    Mr. Aynte. It is certainly going to take a considerable 
amount of time in my view, and I think both the cases of Iraq 
and Afghanistan are quite instructive to Somalia both in terms 
of the timeframe that it could take, but also in the kinds of 
numbers that we need. You have hundreds of thousands of forces 
created and formed for Iraq and close to 300,000 for 
Afghanistan. Somalia has so far only 18,000 security services, 
half of which are probably engaged in VIP protection of 
individuals and installations. So clearly half 
of them are incapacitated from their main task of dealing with 
al-Shabaab.
    Senator Coons. Dr. Le Sage, if you might, for AMISOM to be 
successful, they need--several of you have recommended greater 
force projection capability, both more advanced weapons systems 
and airlift and attack capabilities. If you might comment more 
both on what AMISOM needs to be successful, what we need to do 
to further restrict al-Shabaab's resources, and then what does 
the transition look like to a credible national Somali security 
force?
    Dr. Le Sage. Thank you, Senator.
    Starting with the issue of al-Shabaab's funding, charcoal, 
when the movement controlled the port city of Kismayo, was the 
single largest foreign currency earner for the group, but it 
also generated revenues by controlling road junctions and 
levying taxes there, taxing at markets, and extorting money 
from businesses which otherwise could not operate.
    Now al-Shabaab has lost control of Kismayo, but it remains 
very close by. So it can tax the charcoal trade at the source 
of production, rather than at the source of onward 
distribution. And in this sense, their control of the town of 
Barawe in Lower Shabelle really is critical. This affords them 
the opportunity to impact any trade that is coming from 
Mogadishu to Kismayo and tax it and also to still make revenue 
off of the charcoal business. So in that sense, more aggressive 
operations to actually dislodge al-Shabaab from Barawe and 
other key towns are really going to be the best and fastest way 
of degrading their revenue-earning ability and sustaining the 
movement in that sense.
    It is absolutely true that AMISOM needs force multipliers, 
needs helicopters, needs additional transport, and potentially 
additional soldiers in order to undertake those movements. 
Right now, AMISOM forces are limited to the same number that 
they had when they only controlled the city of Mogadishu but 
they are spread out in multiple locations, Afgooye, Jowhar, 
Baidoa, many other cities. So they are stuck using that limited 
number of forces in a static security role.
    The fastest way for them to actually free up those forces 
and be able to deploy them in an offensive operation would be 
if the Somali Federal Government worked with local 
administrations to actually craft consensual governance in the 
area. Local forces, particularly the Somali National Army or 
other militia forces, provide local security, and then let 
AMISOM take the fight toward 
al-Shabaab and other spoilers of the peace process.
    Senator Coons. One question of all three of you on 
federalism. There seems to be a real tension between a desire 
for a strong national government to be able to resist intrusion 
from Ethiopia, from Kenya sort of meddling by outside forces, 
one perception goes. On the other hand, there is a suspicion of 
a strong federal or national government because of experiences 
under the Siad Barre government, because of the strength of 
clans, and because of the very different cultural and political 
traditions across the country.
    Managing these with a constitution that in its current form 
has significant internal contradictions around what the federal 
structure should look like is quite difficult. It is very 
different from our own Articles of Confederation period, but 
there are some striking similarities in that moving toward a 
healthy and functioning national government for purposes of 
security, taxation, control of ports, control of trade is 
necessary, but there are significant internal concerns that 
mitigate against a strong unitary federal government.
    What role should the U.S. Government be playing in 
advancing a federal structure, and did our dual track policy 
actually hurt that process? And what do you recommend for U.S. 
policy with regards to federalism and implementation going 
forward, if you could in order, Dr. Le Sage, Mr. Aynte, and Dr. 
Hogendoorn?
    Dr. Le Sage. Thank you, Senator.
    The fact is that the Somali Federal Government right now is 
a key actor. It is the key actor going forward in making 
decisions for the establishment of a true federal system that 
actually provides some degree of convergence between the local 
actors in major towns across Somalia's regions and the central 
government. But the Somali Federal Government is currently only 
one actor on the scene. If we are talking about the locations 
where Kenya, Ethiopia, other AMISOM forces are operating, if we 
are talking about 
those places where we need to fight al-Shabaab, there are other 
actors of concern. This is the Jubaland authority, the interim 
Juba authority that has been established in Kismayo. This is 
Rahanweyn clan forces that are based in Baidoa working very 
closely with Ethiopia. It is the autonomous regional 
administration of Puntland and also the self-declared 
independent state of Somaliland. In addition, there are many 
other local administrations loyal to the Ahlu Sunna wal Jamaa 
movements or other smaller, sub-clan-based administrations. 
These are actually facts on the ground.
    There has been a great deal of concern that the United 
States dual track approach was going to reinforce these and in 
some way dismember Somalia and it was going to make it a weaker 
country. The fact is 20-odd years of civil war have 
decentralized Somalia radically and made it a remarkably weak 
country. The dual track approach allowed the United States to 
engage both at the capital level and at that local 
administration regional level at the same time to promote an 
agenda of convergence.
    Maybe the language needs to be changed at this point in 
time, but that ability to support both levels simultaneously is 
what is ultimately required to promote these power-sharing and 
resource-sharing deals internally within a town like Baidoa, 
but then between that town and the central government.
    Senator Coons. Thank you.
    Mr. Aynte. Senator, that is a good question.
    I think it is important to highlight that Somali people, 
wherever they are in Somalia today, do want some sort of a 
federal structure. It is just unclear in their mind. We are 
actually engaged in a research at the moment looking at this, 
and what we found are that there are universal demands for 
basic things in the debate on federalism. Every Somali wants to 
elect his or her local and national leaders. Secondly, they 
want to get government services closer to where they are. 
Thirdly, they want to see an equitable sharing of natural 
resources, and fourthly, they would like to see constitutional 
guarantees against government intrusion upon their individual 
and group rights.
    We believe these are the four issues that can help and push 
forward the debate and the framework for federalism in Somalia.
    What could the U.S. Government do?
    I think the first thing is really the building and 
formations of the commissions that I talked about, the 
Independent Commission to Review the Constitution, the 
Boundaries and Federation Commission, and ultimately the Inter-
State Commission. I think what these three commissions can then 
do with expertise from the United States and institutions that 
are capable is to lead a national dialogue. At the moment, 
there is virtually no dialogue about federalism at the national 
level. You know, politicians are talking to each other and 
mostly to advance a group or individual interests.
    But I think what needs to happen is a national 
understanding of the options of federalism. When we interviewed 
people across the country about if they understood options on 
federalism and confederation and decentralized unitary state 
and devolution of power and all of these options, most people 
did not really understand what these options are. So I think a 
civic education process is really needed. But that needs to 
happen alongside the commissions.
    The third step that the United States could help with is 
the finalization of the provisional constitution, which again 
is deeply ambiguous, contradictory in many ways.
    So I think these three steps could be a strong starting 
point. Of course, it is unrealistic to expect that we will have 
a clearer picture 3 years from now, but I think we could be at 
a strong position 3 years from now.
    Senator Coons. Thank you, Mr. Aynte.
    Dr. Hogendoorn.
    Dr. Hogendoorn. Well, as we know, here in the United 
States, federalism remains an extremely contentious issue--even 
in these hallowed halls.
    I would agree with Andre Le Sage and Abdi Aynte that 
perhaps we need to recast the dual track approach as perhaps 
the parallel approach.
    But I think the important point is that the money cannot go 
to Mogadishu alone. If it goes to Mogadishu, it stays in 
Mogadishu as it is currently mostly. All the progress that we 
are seeing in Somalia is largely in Mogadishu and it is because 
all the resources that are being pledged to the country are 
largely staying in the capital. That is to some degree 
understandable. I think when the federal government is trying 
to do things, it is easier to do stuff in the capital than it 
would be to do in places far away, especially when they do not 
have formal links with these kinds of local administrations or 
they are in very hostile relationships with them as they have 
been with Jubaland.
    I think the important point that people need to recognize 
is that al-Shabaab benefits from these disagreements and it 
benefits from these tensions. And one of the biggest problems 
is that while Jubaland is somewhat more stable and it is 
arguably less of a safe haven for al-Shabaab, the fact that 
Jubaland is being dominated by a single clan allows al-Shabaab 
to recruit from minority clans who feel that they are not being 
adequately represented by those local administrations. And to 
some degree, al-Shabaab is waiting that game in other areas as 
well, waiting to see those political tensions come to the fore 
and using that as an effective recruiting tool to rebuild its 
ranks.
    Thank you.
    Senator Coons. Thank you. Thank you for your answers to 
that question.
    Senator Flake, thank you for your patience.
    Senator Flake. Thank you. No problem. Those were a lot of 
the questions I had particularly on federalism.
    Mr. Aynte, you kind of addressed it just now in your 
remarks. The provisional constitution is a deeply flawed 
document and contradicts itself. You were referring mostly to 
the federalism aspects of that?
    Mr. Aynte. Senator, it is all across, but the federalism is 
the most important element where it really contradicts and puts 
future federal member states on a collision course with the 
federal government in that it gives--the division of power 
between the periphery and the center is not clear in the 
document as it stands at the moment. But it is only provisional 
and it can be improved.
    Senator Flake. You mentioned four things that you think are 
expected of people, what they expect out of a central 
government. Do those apply to the folks in Somaliland and 
Puntland as well? It sounds to me as if, speaking with some of 
their representatives, they do not want to share in the 
country's resources. They have their own. They want nothing to 
do with the rest of the country. Am I off base there or is that 
their assessment?
    Mr. Aynte. Senator, I think Somaliland and Puntland are 
slightly different.
    I think Somaliland is seeking an outright secession from 
Somalia for the last 20 years. It has done a remarkable job of 
stabilizing itself, having a self-rule, and really laying the 
foundation for democratic institutions and democratic 
processes, of course, with some flaws.
    Puntland is not seeking secession from the rest of the 
country, but it does--like other regions in Somalia, although 
in theory, it is under the federal government, in practice it 
is very much like Somaliland, carrying out its business 
entirely independently from the federal government. Again, this 
is because of the vacuum that exists with the federal 
government.
    I do, though, think that if a concerted effort is made to 
clarify the constitution and begin this national dialogue on 
federalism, I think there is a real opportunity for engagement 
with Puntland and with other emerging and existing federal 
member states.
    Senator Flake. The last panel was talking about the 
government there and at one point referred to it as a 
democratically elected government. It is not quite that simple. 
How is it viewed in the rest of the country?
    I know going back to--what was it--1998 or so with the 
first attempt to appoint traditional elders who would appoint a 
constituent assembly of some type or the last kind of iteration 
of this experience, and it did not take hold. What makes this 
different here? Why is this government going to be viewed as 
anything different than the last attempt, Mr. Hogendoorn? Or is 
it?
    Dr. Hogendoorn. Well, I mean, I would agree with everyone 
or most observers that there were very significant flaws with 
this election process. That said, I think that there was a 
greater attempt to ensure that at least the majority of the 
elders who were at this constituent assembly--who then picked 
the Parliament; who then selected the President--were at least 
somewhat more representative than they had been in the past. It 
certainly was not a perfect process. There were lots of 
allegations of vote buying, of vote rigging, of extortion, and 
so on and so forth.
    I think people focus mostly on the fact that the Prime 
Minister and the President who were selected--or at least the 
President who was elected and then the Prime Minister who was 
selected were both notably not involved in the civil war in any 
major way. And so this was kind of seen as a bit of a break 
from the past. And to be perfectly honest, the President 
especially was someone who came from civil society who we had 
worked with in the past, who many of us had worked with in the 
past and were quite excited about that possibility. That 
certainly does not mean that the government is perfect, but we 
certainly see it as an improvement on past regimes.
    Senator Flake. How realistic is the 2016 timeframe for 
elections? We seem to have backed a horse now with this 
government. If it does not take place, what is our position? 
What do we do? Mr. Aynte, do you have thoughts there?
    Mr. Aynte. Well, as I said, I think elections are not 
impossible but highly improbable to take place in 2016, as we 
understand elections. We might be looking at another 
``selectocracy'' as the 2012 was called by some people. It 
could be that we might have elections in parts that are a 
little more stable than others. But considering the slow pace 
of progress in the last year and the work that needs to be 
done, I would be pleasantly surprised if elections take place 
in 2016.
    What are the options after that? Well, I think it will 
depend on what the stakeholders in Somalia want to do, the way 
forward. Of course, not many people are looking forward to the 
idea of extension. The ``E'' word is now seen as--you know, no 
one wants to hear that. But I think there has to be some sort 
of a selection process that then brings the country to the next 
level.
    I should finally say, though, that the reason why this 
government is possibly seen as a little bit more hopeful than 
the previous ones is people are seeing this as one step toward 
the greater goal of consolidating the gains that have been made 
over the years, so part of an incremental process.
    Senator Flake. Mr. Le Sage, with regard to the failed raid 
last week, the last panel did want to go there. What are the 
implications for the future? Does this embolden the elements we 
do not want to embolden? What happens? What are the practical 
effects of this? And did it surprise you that, one, we launched 
the raid and, two, it ended as it did?
    Dr. Le Sage. I think the most important recent development 
in terms of strengthening al-Shabaab and exacerbating the 
threat that the movement poses to the region is the Westgate 
attack. And we should not let the sensationalism, frankly, of 
the events over the weekend overshadow that tragedy and the 
precedent that that attack set for jihadists both within the 
East Africa region but potentially on a global scale not to 
undertake a suicide bombing operation that is highly 
complicated, but to launch a commando raid against civilian 
targets and kill such a large number of people in a small time.
    I do believe that this has sent a signal to al-Qaeda senior 
leadership from Ahmed Abdi Godane. Whether or not he was the 
actual author of this operation, it sent a signal that al-
Shabaab is an 
al-Qaeda affiliate that needs to be taken very seriously and 
that his leadership at this point is not in question, that they 
can launch these sorts of attacks.
    And so preventing their affiliates, preventing their 
external operations group and the larger national insurgency 
movement that gives space for those extremists to operate, 
preventing them from continuing to hold such space in Somalia 
is really the critical element here. Something like the 
operation that is reported to have taken place in Barawe 
targeting a specific individual, al-Shabaab leader, or leader 
connected to al-Shabaab--that could do some temporary damage to 
the group, set back an immediate operational plan. But only by 
removing this group's safe havens and establishing a 
functioning national federal government that can actually 
address many of the clan tensions and undermine clan support 
and religious support for extremist splinter movements, that is 
going to be the only way to actually reduce the threat longer 
term.
    Senator Flake. Well, thank you. My time is out. I 
appreciate it.
    Senator Coons. Thank you, Senator Flake, for your 
engagement and your interest.
    I have many more questions I would like to ask. Given the 
lateness of the hour, I may ask just one or two more briefly, 
if I might.
    Dr. Le Sage, that last line of questioning suggests that we 
now face some time pressure to support an expansion of AMISOM, 
both its operational reach, its numeric strength, but that we 
are, at the same time, running against a clock to transition to 
a legitimate Somali security force because the longer security 
across the country is made possible by an external 
multinational force that is non-Somali, the more that creates 
the opportunity for recruitment and for al-Shabaab to simply 
cast this as an occupation army rather than a liberation force.
    Would you agree with that? What do you think is the amount 
of time we actually have, and how pressing is this for regional 
security?
    Dr. Le Sage. Senator, given the length of time it is going 
to take to build up a professional and self-sustaining Somali 
national security force, including its army component, its 
intelligence component, and its policing component, it is 
urgent that we begin work on this today. At the same time, I 
think it is going to be urgent for the next several years, at 
least 5, to continue very significant support for the African 
Union mission in Somalia until the Somali national army forces 
actually come on line and can take over some of the static 
security positions that AMISOM currently holds.
    If AMISOM was to leave today, the Somali Federal Government 
would very likely fall very quickly, and that is because the 
Somali National Army today is an amalgamation of different clan 
militias that used to report to warlords. And if you go in and 
look at the various brigades in Mogadishu that make up the 
Somali National Army today, it is pretty quick to identify 
which warlord and which militia faction they used to belong to. 
Their level of national loyalty, their interoperability between 
various subclans just in the city of Mogadishu is remarkably 
low.
    And frankly, the Somali National Army that is being funded 
by the United States and European partners in Mogadishu is 
primarily crafted from one clan, the Hawiye clan, to the 
concern of all other clans in the regions across south-central 
Somalia, Puntland, and Somaliland. For this reason, we actually 
need very quickly to expand Somali National Army recruitment, 
take the clan militias from those other areas that either are a 
part of independent administrations or proxy forces for 
Ethiopia and Kenya and use salary payments, frankly, to 
integrate them into a national force, over time train them, 
equip them, and develop something professional. But that is 
going to take several years.
    Senator Coons. Thank you.
    If I might, Mr. Aynte, the issue of remittances, which you 
mentioned in passing, has been a real concern of mine. 
Describe, if you would, briefly the role of remittances from 
the United States and from Europe and how the Somali economy 
and the growing sort of capacity in Mogadishu and nationally 
would be affected if the mechanisms for transferring 
remittances were to be blocked? And what do you think we can 
and should do to try and sustain a pathway for legitimate, 
vetted remittances?
    Mr. Aynte. Senator, the scale of remittances to Somalia is 
larger than all international aid combined annually. It is 
about $1.5 billion a year coming from the Somali diaspora in 
the United States, Europe, Australia, and the Middle East and 
Africa. There are about 2 million Somalis scattered around the 
world sending money back to their relatives. So it is 
essentially the most important lifeline the Somali people have. 
I think the banks and other financial institutions have 
legitimate concerns about the rules and regulations both here 
in the United States but also in the United Kingdom where now 
Barclays Bank is blocking, or it is about to block, remittance 
companies to open bank accounts within Barclays. I think what 
the U.S. Government can do is to work with partners, 
particularly with the United Kingdom, to try and create a 
framework whereby the remittance companies can continue to send 
remittances legally to the Somali people.
    The alternative now is, if Barclays goes ahead with its now 
promise to shut down on the Hawale companies in the U.K.--the 
alternative is that many people will go underground, and our 
ability to see the activities of money transfer from the West 
to Somalia will even become more constrained. So I think this 
is an urgent matter, one that has serious implications, both 
humanitarian, but as well as security both here for the United 
States but also for the Somali people.
    Senator Coons. Thank you.
    Dr. Hogendoorn, last question from me. The previous panel 
spoke some about the model of an African-led indirect action by 
the United States, financing an African-led multilateral force 
as being a possible role model for multilateral action for 
regional security. If we are at this sort of point of 
inflection where AMISOM either succeeds or fails and if actions 
like the attack in Nairobi put significant pressure on regional 
partners like Uganda, Kenya, Djibouti, Ethiopia, how vital is 
it for our interests on the continent and globally, how vital 
is it for Somalia's future that AMISOM succeed and that the 
regional partners continue to get bilateral support from the 
United States to stay engaged in this fight and to not 
withdraw?
    Dr. Hogendoorn. Well, as I mentioned in my testimony, I 
believe, as Dr. Andre Le Sage mentioned, that absent AMISOM, it 
is quite likely that the Somali National Government would 
collapse. And I think that AMISOM has done a remarkable job 
over the last 3 or 4 years to push al-Shabaab back at enormous 
cost in blood and treasure to the troop-contributing countries.
    I think the largest challenge really, to some degree, is 
that while this has been a very effective military operation, 
the African Union at the moment still lacks the capacity to 
make this both an integrated political and military operation, 
which is why we have created this unwieldy hybrid between the 
United Nations, which has a political mandate, and the AU, 
which has a military mandate. And it has always been very, very 
difficult to try to meld those two organizations together since 
they have different cultures, they oftentimes have different 
leaders who sometimes do not get alone.
    Currently the U.N. has transitioned to a new mission with a 
new special representative for the Secretary General. That 
mission was just established in June. So it is very early for 
us to be able to see how that will work. He does have 
instructions from the U.N. Security Council to cooperate with 
the AU. Those instructions are not very clear, as I mentioned 
in my testimony. And I think it remains a work in progress. And 
unfortunately, as I think all of my colleagues would agree, 
ultimately the solution in Somalia needs to be a political one 
and AMISOM needs to work within a political framework to 
achieve that goal, and kind of melding those two organizations 
and have them working toward the same goal has and will 
continue to be a challenge.
    Senator Coons. Thank you.
    Senator Flake, any further questions?
    Senator Flake. Just one question.
    Mr. Aynte, with regard to the diaspora, it is very 
involved, obviously, with $1.5 billion a year in terms of 
remittances. What is the feeling in the diaspora generally 
about the national government and the situation there? Can you 
give some sense of the feeling?
    Mr. Aynte. Well, you know, I used to be part of the 
diaspora myself, but now I am back home.
    Senator Flake. I know it is not monolithic. I am not trying 
to suggest that, but give me some sense of----
    Mr. Aynte. Well, I think like most people in Somalia, the 
diaspora have welcomed the inauguration of this government in 
2012 in huge numbers. I think a year into it, many people have 
realized that they probably had little higher expectations than 
realistic and are understandably disappointed with the low 
progress that has happened over the past year. But I think many 
Somalis continue to be optimistic and, more importantly, 
engaging what is going on in Somalia both not only in sending 
remittances but actually the diaspora do dominate the political 
structures across the country from Somaliland to Puntland to 
the federal government where as many as 50 percent of the 
entire Parliament is actually made up of diaspora. And 
something like 60 or 70 percent of the cabinet, any given 
cabinet, is diaspora. So the diaspora are vital to what is 
happening politically and socially and economically and what is 
going on and are engaged and sometimes are holding the 
government accountable to its national vision.
    Senator Flake. Thank you.
    Senator Coons. Thank you, Senator Flake.
    Thank you to our witnesses today from the first and second 
panel. I will remind all of us where we began, which was the 
impact of the Government shutdown on the capacity of different 
agencies and departments within the United States to continue 
to carry out our development, our diplomacy, our intelligence, 
and our security missions. And I am grateful that all of our 
witnesses were able to come and testify today, and I would 
appreciate Senator Flake's cooperation in carrying forward this 
hearing, which I do think is an important part of our ongoing 
discussion about our role in Somalia and the region and the 
world.
    I will keep the hearing record open until Friday of this 
week, October 11, so that members of the committee who were not 
able to join us today might submit written questions for the 
record.
    And with that, this hearing is hereby adjourned.
    [Whereupon, the hearing was adjourned.]

                                  [all]

</pre></body></html>
